<html>
<title> - REVISITING THE ROLES AND MISSIONS OF THE ARMED FORCES</title>
<body><pre>[Senate Hearing 114-527]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-527
 
         REVISITING THE ROLES AND MISSIONS OF THE ARMED FORCES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
        
        
                               ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-252 PDF                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
          
        
        



  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                            november 5, 2015

                                                                   Page

Revisiting the Roles and Missions of the Armed Forces............     1

Deptula, Hon. Lieutenant General David A., USAF (Ret.), Dean, The 
  Mitchell Institute for Aerospace Studies.......................     4
McGrath, Bryan, Deputy Director, The Center for American 
  Seapower, The Hudson Institute, Washington, DC.................    22
O'Hanlon, Michael E., Ph.D., Co-Director, The Center for 21st 
  Century Security and Intelligence, The Brookings Institution, 
  Washington, DC.................................................    27
Martinage, Robert C., Senior Fellow, The Center for Strategic and 
  Budgetary Assessments, Washington, DC..........................    33

                                 (iii)


         REVISITING THE ROLES AND MISSIONS OF THE ARMED FORCES

                              ----------                              


                       THURSDAY, NOVEMBER 5, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Reed, Nelson, 
McCaskill, Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Hirono, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. The committee meets 
this morning to consider the roles and missions of the U.S. 
Armed Forces as part of our review of our Nation's defense 
organization. Our recent hearings in this series have 
considered the first order question of geopolitics, strategy, 
and technology. We have asked, for example, what challenges do 
we face and how must our military be ready to deter, fight, and 
win in war, both at present and in the future. Now we seek to 
ask who should be responsible for what military missions.
    We are fortunate to have a distinguished panel of experts 
to help guide us. Retired General David Deptula, dean of the 
Mitchell Institute of Aerospace Studies, Mr. Bryan McGrath of 
the Center for American Seapower at the Hudson Institute, Dr. 
Michael O'Hanlon, co-director of the Center for 21st Century 
Security and Intelligence at the Brookings Institute, and Mr. 
Robert Martinage, who is a senior fellow at the Center for 
Strategic and Budgetary Assessments.
    Mr. Martinage, did I pronounce that correctly?
    Mr. Martinage. Martinage.
    Chairman McCain. Martinage. Please accept my apologies.
    Mr. Martinage. That is fine.
    Chairman McCain. I am sorry. To find out the last time this 
question arose in missions was seriously deliberately and 
clearly defined by senior leaders, you have to go back to March 
1948. It was then in the aftermath of a World War and the 
creation of what would become the Department of Defense. In an 
effort to resolve confusion and quell rivalries between the 
services that the first Secretary of Defense, James Forrestal, 
brought together the service chiefs for four days in Key West 
to resolve these questions.
    The resulting 14-page document, commonly known as the Key 
West Agreement, defined the role of each service in achieving 
the core military missions of the day. Simply put, the Navy was 
tasked with fighting other navies, the Army with fighting with 
other armies, and the Air Force with other air forces. 
President Harry S. Truman signed the final agreement in April 
of 1948. This was the last time the Commander-in-Chief formally 
approved the roles and missions of the armed services.
    To be sure, inter-service rivalry did not end at Key West, 
and efforts have been made over the years to review roles and 
missions, but many of these efforts have come to naught. The 
congressionally-mandated 1995 Commission on Roles and Missions 
even dismissed the questions it was asked to answer--who does 
what.
    The result has been far from ideal. To the extent that the 
roles and missions of the armed services have evolved, they 
have done so largely in ad hoc and reactive ways, driven more 
by budgetary pressures than strategic direction. Far too often 
this has led to duplication of effort, inadequate responses to 
increasingly important missions, programs of record that 
continue along despite changes in the strategic environment, 
and inter-service fights over resources that give papered over 
in the belief that everyone can do everything with roughly 
equal shares of the pie.
    There are other reasons as well why a review of roles and 
missions is timely. First, while our military is still composed 
of distinguished services, as it should be, it fights as one 
joint force, conducting missions that span all the domains of 
warfare. The Navy, for example, has a key role to play in 
attacking targets on land and in the air. Air Force planes 
armed with anti-ship missiles, have a vital role to play in 
winning fights at sea. Army air defense batteries are 
increasingly important in creating the kinds of anti-access 
challenges for our roles that they seek to impose on us.
    The question of who does what is even more pronounced when 
budgets are tight. Take the mission of long-range precision 
strike, which is essential to our ability to project power 
against advanced adversaries. Aircraft carriers, long-range 
bombers, and ground-based missiles and rockets all have roles 
to play. But what is the proper balance between these 
capabilities, especially when a carrier now costs $13 billion, 
one bomber costs half a billion dollars, and individual 
missiles cost millions of dollars each. What is the most 
efficient allocation of roles to perform this mission?
    Second, the missions themselves are changing significantly. 
It has been a while since the Army mounted a large-scale 
airborne assault on to contested ground or since the Marine 
Corps conducted a contested amphibious landing. At the same 
time, unconventional missions, such as space, special 
operations, and intelligence, surveillance, and reconnaissance 
are more important than ever. Other missions like coastal 
defense, close air support, and nuclear deterrence continue to 
struggle for adequate funding and attention. Then there is a 
mission like cyber, which did not even exist 20 years ago, but 
is now absolutely central to our security.
    There are serious questions about how to properly 
prioritize new and untraditional missions. We cannot afford for 
these vital functions to be orphaned within services that will 
undercut and underfund them in favor of parochial priorities.
    I would like to hear from our witnesses how best to 
motivate the services, to give the attention to these new and 
non-traditional missions that they deserve. Should certain 
missions be allocated among the services? In these new domains 
of warfare, such as space and cyber, should we even consider 
creating new services, such as the Air Force was created seven 
decades ago in recognition of the vital role of air power?
    I would also be interested in our witnesses' view on the 
value of competition both between and within the services. 
``Service rivalry'' has become a derisive term. It is often 
contrasted with service collaboration, unity of effort, and 
jointness. Is that justified, or can competition of this kind 
actually create the necessary incentives for excellence and 
efficiency? When the services do compete, as they inevitably 
will, how are those fights resolved and by whom? Do we get 
clear, creative courses of action regardless of who wins and 
loses or homogenized, lowest common denominator options that 
cost more and deliver less?
    Finally, I recognize that civilian and military leaders at 
the Department of Defense [DOD] are wrestling with many of 
these questions now, and that is encouraging. But they, like 
their predecessors, face the challenge of how to affect 
enduring change. The defense bureaucracy in the services have a 
healthy track record of reverting back to their original forms 
and functions once they are overseers of the moment move on.
    The Key West Agreement was important because the Secretary 
of Defense himself with the Service Chiefs and the Commander-
in-Chief personally directed the roles and missions assigned to 
each service. Should we be asking the Commander-in-Chief, 
either this one of the next one, to do the same today?
    I look forward to this testimony of our witnesses.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, and 
I would like to join you in thanking our witnesses for their 
willingness to appear today to provide their thoughts on the 
roles and missions of the military services and providing for 
the defense of the Nation. It is clear from your past week and 
your prepared testimony for today's hearing that each of you 
bring unique and valuable perspectives on this issue. Thank 
you, gentlemen.
    Two of our site experts that have recently come before our 
committee, Shawn Brimley and Paul Scharre, wrote last year 
that, ``Today's military is the product of history, not of the 
missions and threats it now faces. American forces are hampered 
by overlapping roles and missions, arcane organizational 
structures, Cold War platforms and programs, and recruiting 
practices detached from modern means. If it were starting 
fresh, this is not the military the United States would build."
    Now, while starting from scratch is obviously not an 
option, I hope today's witnesses will offer their own thought-
provoking proposals for smart reform that would better align 
the various roles and missions of our military services, reduce 
redundancy where appropriate, and make our joint forces more 
effective. The current and projected budget constraints facing 
the Federal Government require that we week efficiencies while 
at the same endeavoring to shape our military for the threats 
we are most likely to face in the future.
    While I suspect that all of our witnesses would support 
larger budgets for all of our Military Services, I hope that 
your testimony will take into account the very real budget 
realities facing the Department of Defense, and offer 
recommendations for prioritizing limited resources to most 
effectively risk to our national security.
    Some may also argue for better readiness and capability of 
other parts of the government, such as the Departments of State 
and Homeland Security. These departments also include important 
elements of national power and security. The domestic 
discretionary budget is also constraining these elements of our 
national power.
    The 1986 Goldwater-Nichols reforms necessarily focused on 
the importance of jointness in the aftermath of several high-
profile military operations that exposed deficiencies in our 
operating concepts. While these reforms were critical to 
enabling today's joint force, they may have also had the 
unintended consequences of blurring the lines between 
traditional roles and missions assigned to the Military 
Services, and allow for duplication in some capability areas as 
new threats and technologies have emerged over time.
    I would be especially interested in the thoughts of our 
witnesses on the delineation of responsibilities in mission 
areas that have arisen since the passage of Goldwater- Nichols, 
most notably related to the use of cyber and unmanned aerial 
vehicles. I would also say unmanned undersea vehicles.
    Congress has recognized the need to continue to address the 
responsibilities of the military services as new threats and 
technologies arise by mandating periodic roles and mission 
reviews. Unfortunately, these reviews, namely the Quadrennial 
Roles and Missions Review, have largely been unsuccessful in 
accomplishing their appropriateness. According to the 
Government Accountability Office, these reviews fail to 
``clearly identify the components within the Department that 
are responsible for providing the core competencies and 
capabilities needed to address each of the primary missions of 
the Department of Defense, or plans for addressing any 
capability gaps or unnecessary duplication.'' I hope our 
witnesses today will provide any suggestions they might have 
for improving the output of these efforts.
    It is extremely important to take a look at all of these 
issues, and I, again, commend the chairman for not only these 
series of hearings, but for his intention to carry forward with 
a significant review of our fundamental defense structure and 
policies. With that, thank you, Mr. Chairman, and thank you, 
gentlemen.
    Chairman McCain. I thank you, General. Welcome. Please 
proceed. By the way, all witnesses' complete statements will be 
made part of the record. General Deptula?

  STATEMENT OF HON. LIEUTENANT GENERAL DAVID A. DEPTULA, USAF 
   (RET.), DEAN, THE MITCHELL INSTITUTE FOR AEROSPACE STUDIES

    General Deptula. Mr. Chairman, Senator Reed, and members of 
the committee, I am honored and humbled that you invited me 
here today. I assure you I will do my best to keep my comments 
brief, up front, and appreciate you putting an extended version 
of my remarks in the record.
    I will tell you all right up front that I believe if we 
want to maintain our position as the world's sole super power, 
we need to have the strongest Army, Navy, Marine Corps, and Air 
Force in the world.
    I am the product of a military family. My grandfather was 
an immigrant and served as an Army infantryman in World War I. 
My uncle was a marine at the tip of the spear in World War II, 
Korea, and Vietnam. My dad served in World War II and the 
Pacific as a B-29 maintenance officer. Later, he helped win the 
Cold War, participating in nuclear weapons development and 
testing. He is the most dedicated Air Force officer I know, and 
now almost 95, he is still my inspiration, and I am honored 
that he is with us today in the audience.
    Chairman McCain. He is certainly welcome. Thank you, sir, 
for your service.
    General Deptula. World War II and the Cold War posed for my 
uncle, my dad, and many others of the Greatest Generation 
significant challenges. As a result of their efforts, the 
United States prevailed against incredible odds. It is now up 
to us to confront our own set of circumstances.
    Today my son carries on a proud tradition by serving in the 
military. Today's world presents him and his brothers and 
sisters in arms a stark picture. The United States faces a 
burgeoning set of threats around the globe, but has fewer 
resources to meet them. One of the only ways to prevail is to 
optimize our service roles and missions to evolve their 
relationship from one of interoperability, which was an 
objective of the Goldwater-Nichols Act, to one of 
interdependency, the next step in the progress of our military, 
and perhaps the focus of the McCain-Reed Act.
    Now, getting to interdependency will require a more clearly 
delineated assignment of roles and function than exist today. 
As you gentleman have already noted, while updated in 2010, 
they do not provide the kind of distinction among the Services 
that current budgets, technologies, threats, and the strategic 
environment demands.
    So how does the Air Force fit into this environment? The 
strategic narrative of the Air Force is to provide our Nation 
global vigilance, global reach, and global power. These tenets 
emphasize not only the agility of Air Force capabilities, but 
also the flexibility and options they provide our civilian 
leadership. That said, our defense institutions are woefully 
stuck in the last century. The last serious roles and missions 
review was held in 1995. It is time for a 21st century review 
as 21st century threats present daunting challenges. We are not 
going to buy our way out of these challenges because the money 
is not there, nor are there any silver bullets. We are going to 
have to think our way out of these problems.
    This respected committee could lead the way on defense 
reform if the committee considered realigning its structure to 
mirror modern capabilities versus some model that reflects last 
century military organization. Sea power is currently afforded 
its own subcommittee. Land and air power are batched together 
and named after a previous version of Army doctrine, and no 
subcommittees are dedicated to cyber or space. An action you 
might consider to increase focus on 21st century defense is to 
split the Air/Land Subcommittee into one on aerospace power, 
one on land power, and add one for cyber operations.
    In my written remarks, I offer 14 additional areas that may 
provide a starting point for serious review. Briefly, here are 
my top six. One, insert a commission on roles and missions for 
the 21st century into the next National Defense Authorization 
Act [NDAA] that will inform a new National Security Act. Two, 
cyber. Operation in cyberspace beg for more unification. Stand 
up a U.S. cyber command as a combatant command as soon as 
possible.
    Three, information. Stand up of a vigilance command inside 
the Air Force as soon as possible to integrate intelligence, 
surveillance, reconnaissance, cyber, and space operations with 
a view to a future combatant command to codify information as a 
defense enterprise. Four, concepts of operation. Shift 
combatant command predilection to organize by service 
components to a more functional alignment of an intelligence, 
surveillance, and reconnaisance [ISR] strike maneuver 
sustainment complex, capitalizing on advancements in network 
capability to empowering information's ascent as a dominant 
factor in warfare.
    Five, process. Change the primary measure of merit in DOD 
program decisions from individual unit cost to cost per desired 
effect, and do it across service boundaries, vice inside 
service stovepipes. Six, personnel. Change military force 
management from a system that values risk avoidance to one that 
accepts risk tolerance and rewards innovative thinking instead 
of punishing it.
    Please notice these recommendations are not about hardware. 
They are focused on ideas, ideas about integrating existing and 
future capabilities within an agile operational framework 
guided by human understanding. The appropriate force structure 
will follow.
    Just as combat tomorrow will look different than it did 
yesterday, so, too, should the military that prosecutes it. I 
look forward to your questions.
    [The prepared statement of General Deptula follows:]

                 Prepared Statement by David A. Deptula
         revisiting the roles and missions of the armed forces
                              introduction
    Mr. Chairman, Senator Reed, members of the Committee, thank you for 
inviting me to appear today to present my thoughts on the critical 
issue of roles and missions of the Armed Services. I am a product of a 
military family. My grandfather was an immigrant and served as an Army 
infantryman in World War I as a private. My uncle was a Marine at the 
tip of the spear in World War II (WWII), Korea, and Vietnam. He was the 
first Marine officer to land on Green Beach at Inchon, and led a 
battalion in Vietnam. My Dad served in WWII in the Pacific as a B-29 
maintenance officer. Later he helped win the Cold War participating in 
nuclear weapons development and testing, and served in research and 
development the remainder of his career. He is the most dedicated Air 
Force officer I ever knew. Now almost 95, he was, and still is, my 
inspiration on the value of aerospace power.
    WWII and the Cold War posed for my uncle, my Dad, and many others 
of the greatest generation, some very significant challenges. As a 
result of their efforts, the United States prevailed against incredibly 
challenging odds. Today, my son carries on a proud tradition serving in 
the military and flies an Air Force fighter. It is now up to us to 
confront our own unique set of circumstances. The present situation 
paints a stark picture. The United States faces a burgeoning set of 
threats around the globe, but has fewer resources to meet these 
challenges. The only way to prevail against such dynamics is to 
optimize our service roles and missions to evolve their relationship 
from one of interoperability--a goal of the Goldwater-Nichols Act, to 
one of interdependency--the next step in the evolution of our military, 
and perhaps the focus of a McCain-Thornberry Act.
    A dollar spent on duplicative capability comes at the expense of 
essential capacity or capability elsewhere. Confused organizational 
structures lead to sub-optimal employment of forces already stretched 
too thin. Outdated service roles and missions parameters yield costly, 
inefficient acquisition programs. Clearly, things have to change--
security circumstances and fiscal pressures will no longer tolerate 
such conditions.
    I believe that if the United States is to succeed in protecting its 
core interests around the globe and deter aggression, we need to have 
the strongest Army, Navy, Marine Corps, and Air Force in the world. 
However, fiscal realities dictate that the military will have to make 
difficult choices to balance near-term operational readiness with 
longer-term needs. That is the only way we will attain affordability 
imperatives. This demands much more clarity regarding goals and desired 
outcomes, with special emphasis on what it means to project effective, 
prudent power in the 21st century. These dynamics are yielding a 
budget-driven roles and missions competition, but a thoughtful 
conversation regarding national interests and strategy has yet to 
occur. I commend Chairman McCain, Senator Reed, and the rest of the 
Senate Armed Services Committee for staring this conversation by 
initiating this series of hearings regarding our national security 
architecture.
    I believe the biggest challenge our defense establishment faces is 
one of institutional inertia. We are well into the information age, yet 
our systems, organizations, and concepts of operations are rooted in 
the industrial age of warfare. This in addition to the fact our 
diplomatic, economic, and informational elements of our national 
security enterprise are also largely unchanged since the mid 20th 
century, and require more integration than ever before. We can no 
longer afford this misalignment--not only is it costly, but it also 
projects undue risk.
    Change with respect to the military involves four principal 
factors: first; advanced technologies that, because of the new 
capability they yield, enable the second element; new concepts of 
operation that produce order-of-magnitude increases in our ability to 
achieve desired military effects. The third element is organizational 
change that codifies changes in the previous elements, or enhances our 
ability to execute our National Security Strategy. It is through these 
lenses that we need to be measuring our progress. The final essential 
element to progress is the human dimension. People are fundamental to 
everything we do, especially when it comes to leadership.
                 the 21st century security environment
    First, our defense strategy must contend with non-state and 
transnational actors; a rising economic and military powerhouse in 
China; a resurgent Russia; declining states--some with nuclear weapons; 
the increasing likelihood of nuclear weapons proliferation that the 
recent deal with Iran does not attenuate; evil actors of the most 
despicable nature; and a dynamic web of terrorism.
    Second, the pace and tenor of our lives has been irrevocably 
altered by the acceleration of change. Global trade, travel, and 
telecommunications have produced major shifts in the way we live. Such 
developments are not isolated. Speed and complexity have merged, and 
now permeate the conduct of warfare. Consequently, one implication for 
our future military is that it must be able to respond rapidly and 
decisively anywhere on the globe at any time. As recent events have 
demonstrated, key security events now unfold in a matter of hours and 
days, not months or years. The window to influence such circumstances 
is increasingly fleeting.
    Third, we have to contend with increasing personnel and procurement 
costs at a time when defense budgets are decreasing. Therefore, the 
provision of flexibility of response across a wide spectrum of 
circumstances should be foremost among the decision criteria we apply 
to our future military.
    Fourth, in the information age, we have to acknowledge that 
deploying large numbers of American military forces onto foreign soil 
to nation-build vice accomplish a defined mission and leave, is simply 
counter-productive to securing our goals and objectives. Strategies 
centered upon occupation and attrition warfare expose American 
vulnerabilities, invariably result in anti-American backlash and 
domestic disapproval, and often create destabilizing effects within the 
very state or region they are intended to secure.
    Fifth, we must actively pursue and invest in options we can use to 
counter the increasingly advanced anti-access strategies and 
technologies our adversaries are likely to employ. Systems such as 
precision weapons and stealth projected incredible lethality at the end 
of the Cold War. Those capabilities did not disappear. They continued 
to advance and proliferate. One quarter of a century later, it is 
foolhardy to assume U.S. Forces will be afforded freedom of action in 
future engagements. Our strategies, planning assumptions, acquisition 
programs, and training need to account for this reality.
    Sixth, we need to challenge our adversaries' domination of public 
perception in the information age. We have to learn how to use the 
application of accurate, compelling information as a core element of 
our security apparatus. We are woefully inept at strategic 
communications and too often are put in a reactionary vice proactive 
position when it comes to this core tenet of the information age.
    Finally, information's value also extends past the news cycle. Just 
as wireless connectivity, personal computing devices, and cloud-based 
applications are revolutionizing life in the civilian sector; these 
trends are also radically altering the way in which our military forces 
project power. Faster and more capable networks and computing 
capabilities are turning information into the dominant factor in modern 
warfare. As one Air Force commander recently remarked, ``We need to 
understand that platforms like the F-22 are information machines far 
above and beyond being killing assets.'' Operations over Syria validate 
this assertion. Given this reality, it is time we acknowledge that 
information and its management is just as important today as the 
traditional tools of hard military power-- airplanes, satellites on 
orbit, infantry, amphibious elements and warships at sea. Information 
and data is the force evolving all these tools from isolated 
instruments of power into a highly integrated enterprise where the 
exchange of information and data will determine success or failure in 
the 21st century.
    These facts have major implications throughout the military 
enterprise--shaping key areas like doctrine, organization, training, 
materiel acquisition and sustainment, along with command and control. 
Top leaders in the policy community also need to adjust to the new 
realities of information age combat operations. World War II and Cold 
War paradigms will simply fall short when considering how to build, 
sustain and employ military power in the modern era.
    These trends provide a starting point for considering the future 
with which we have to contend. Bluntly stated, all the services, 
Department of Defense agencies, and the other elements of our national 
security architecture have been slow to recognize the emerging new 
security environment. Our focus has remained on traditional weapons 
platforms and we still have institutions and processes that were 
designed in the middle of the last century to accommodate what we 
perceived to be--in retrospect--a rather simple world of kinetics and 
traditional domains that characterized the Cold War. To fix this, we 
need to supplement our traditional focus on combined arms warfare with 
a broader ``lens'' that enables us to better accommodate such elements 
as non-kinetic tools emerging traditional systems and the cyber domain. 
Excessive emphasis on traditional weapon platforms associated with 
combined arms warfare runs the danger of dismissing the emerging non-
kinetic instruments. We cannot relive the era of battleship admirals 
and cavalry generals dismissing aviation as a passing fad.
    Summarizing, the proliferation of technology, information flow, and 
the associated empowerment of nation-states, organizations, as well as 
individuals, presents one of the most daunting challenges our military 
has ever faced.
 the cornerstones of the u.s. military: services and combatant commands
    Interservice rivalry is a vivid part of American military history 
stretching forward from the earliest days of our Republic. The most 
intense period of competition occurred at the close of World War II. 
Drawing on the lessons of that war and seeking to address years of 
agonizing political turmoil fueled by service rivalries, President 
Truman prodded Congress to pass the National Security Act of 1947 and 
its first amendment in 1949. This legislation established the 
fundamental postwar defense organization for the United States. They 
created, among other entities, a new Department of Defense (DOD), 
intended to unify the earlier separate Departments of War and Navy, and 
an independent air force as a third military department within DOD.
    In 1958, additional legislation created the unified combatant 
commands that were designated as the headquarters for the conduct of 
actual warfare. However, this objective remained theoretical for many 
years, with the services remaining dominant in all aspects of 
organization, training, equipping, and planning. Land, sea, and air 
forces tended to operate autonomously. A service would develop weapons 
and equipment without regard to their compatibility with that of the 
other services. Army and Navy communications systems couldn't talk to 
one another; equipment was acquired by the Army and Navy that could not 
be loaded into Air Force cargo planes; and each service had its own 
doctrine for employing aircraft. This did not change until the 
Goldwater-Nichols Act of 1986. Its passage prompted when years of 
inter-service dysfunctionality manifested tragic results during the 
1980 Iranian hostage rescue mission and the flawed invasion of Grenada 
three years later. Reformers demanded a change to afford joint conduct 
of warfare.
    The Goldwater-Nichols Act had no intent to erase the differences in 
service philosophies and cultures, but it was hoped that the unique 
characteristics and strengths of each service could be molded to 
complement one another so the whole would be greater than the sum of 
its parts. Jointness became the mantra of the Armed Forces after 
passage of the Goldwater-Nichols in 1986. So just what did the 
Goldwater-Nichols act do? What is proper meaning of jointness?
    Here are the basics of the Goldwater-Nichols Act. First, no longer 
do the individual services fight our nation's war--the unified 
combatant commands do the fighting under a designated joint task force 
commander. There are two kinds of unified combatant commands--regional 
and functional. The regional commands are Pacific, European, Central, 
Southern, Africa, and Northern Command. The functional commands are 
Transportation, Special Operations, and Strategic Command.
    The services organize, train, and equip what are called service 
component forces that are assigned to the unified combatant commands 
under a joint task force commander to actually conduct operations. The 
way America fights essentially boils down to this: individual services 
do not fight--they organize, train, and equip. It is the combatant 
commands that fight under the unifying vision of a joint force 
commander.
    Jointness means that among our four services, a separately 
developed and highly specialized array of capabilities is provided 
through service or functional components to a joint force commander--
his or her job is to assemble a plan from among this ``menu'' of 
capabilities, applying the appropriate ones for the contingency at 
hand. It does not mean four separate services deploy to a fight and 
simply align under a single commander. It does not mean, ``going along 
to get along.'' Nor does jointness mean everybody necessarily gets an 
equal share of the action. Jointness does not mean homogeneity. In 
fact, what is often misunderstood about joint operations is that its 
strength resides in the separateness of the service components.
    Joint force operations create synergies because they capitalize on 
each services' core functions--skill sets that require much time, 
effort, and focus to cultivate. It takes 20-25 years to develop a 
competent division commander, a surface action group commander, a 
Marine Expeditionary Force commander, or an aerospace expeditionary 
force commander.
    The beauty of the joint approach to warfare is that every 
contingency will be different, and that a joint approach allows a joint 
task force commander to tailor make a force optimal and unique to the 
particular contingency facing him or her. The service component force 
make-up for Operation Desert Storm (or the first Gulf War) was very 
much different than that required for Operation Allied Force (the air 
war over Kosovo and Serbia) which was very much different than that 
required for Operation Unified Assistance (the South Asia Tsunami 
relief), which is very much different than that required for Operation 
Inherent Resolve (the current counter Islamic State operations), and so 
on.
    Since the passage of the Goldwater-Nichols Act, a joint approach 
was first intended to move contingency organizations and operations 
from independent, de-conflicted, service approaches, to sustained 
interoperability. Today, we need to move beyond interoperability to 
interdependency, which means the service components rely on 
capabilities brought to the joint fight by other service components. 
The services need to shed their historical predilection for self-
sufficiency, or ``owning'' everything required to fight and win 
independently. The reason joint task force operations create synergies 
is because an interdependent approach allows each service to focus on, 
hone, and offer its core competencies. Services trying to control 
everything is unsustainable from a resource perspective and yields sub-
optimized, compromised capabilities. Control of all the capabilities in 
a fight is the role of the combatant commanders when employing forces. 
It is far better for the services to invest and excel in their 
respective domains.
    The notion can be likened to doctors concentrating on healing the 
sick, and firemen focusing on rescuing people from burning buildings. 
Drawing out this analogy, such an approach means joint task force 
operations have at their disposal the abilities to both put out fires, 
and to cure sick people, no matter which is needed where--and both of 
these important tasks are being performed by specialists in their 
fields. The unfavorable alternative to interdependence is to have 
firemen also attempting surgical procedures, and physicians darting in 
and out of blazing structures between seeing patients.
    To be joint we require separate services, and it is an imperative 
that service members understand how to best exploit the advantages of 
operating in their domains. Articulating the virtues and values of a 
member's service is being ``joint.'' However, when a single service 
attempts to achieve warfighting independence instead of embracing 
interdependence, ``jointness'' unravels, warfighting effectiveness is 
reduced, and costly redundancies and gaps likely abound. The last thing 
we need to do is turn back the clock on Goldwater-Nichols by allowing 
services to continue to develop redundant capabilities, thereby 
rejecting the premise of joint warfighting.
    The degree of jointness exhibited since 1986 has ebbed and flowed 
based on the commanders in charge, and the degree--or lack thereof--
that top U.S. military leaders have encouraged joint organization and 
execution. Let me offer some examples of the real-world ebb and flow of 
jointness. I was truly blessed with a career that found me in multiple 
joint and combined operations that were then interspersed with 
headquarters assignments and congressional commissions that were each 
focused on joint warfighting and organization. In one of those 
assignments I was the attack planner for air operations in Operation 
Desert Storm. In doing so I really did not care what service--or 
country insignia--was painted on the side of an airplane in 
constructing those strikes; it was capability that mattered--what kind 
of weapons could they deliver--dumb bombs or precision munitions? How 
long could they stay on station? Did they require airborne refueling? 
Could they defend themselves? Etc.
    In one instance, I wanted to use the Army Tactical Missile System 
(ATACMS) to suppress enemy surface-to-air missiles to eliminate the 
threat these systems presented to our attack aircraft. The Army 
commanders denied that request claiming that the ATACMS were a Corps 
asset and they needed to ``save'' them for use by the Army Corps later 
in the war. While I am not arguing with the requirement, I take issue 
with the parochial solution. The parochial interests of Army 
``ownership'' of that capability prevented a valuable application of it 
in a joint context. Today we have matured in the context of joint use 
of ATACMS as evidenced by its incorporation in the integrated planning 
of potential operations in places like Korea, but the underlying 
question remains--why are services procuring weapons to achieve effects 
already possessed by another service? Today's variant of this situation 
is very evident with the overlap among the services with medium/high 
altitude unmanned aerial vehicles--also known as drones.
    In another example, the Marines were dogmatic about who and how 
``their'' aircraft would be tasked. This was the first major combat 
operation since the passage of the Goldwater-Nichols Act, and much was 
at stake between those who held on to old ways of service fighting, and 
those taking a joint approach. Lt General Chuck Horner--the first joint 
force air component commander--stated that if you were going to fly you 
had to be on the air tasking order to support the entire joint effort. 
That meant your tasking would be accomplished in a unified manner as 
part of a theater-wide plan. However, the Marines disagreed and came up 
with ingenious ways to ignore joint requirements and pursue their own 
unilateral objectives.
    To get into the combat zone as an aircraft you needed to transmit a 
specific identification code known as IFF. One day, the Marine in my 
planning organization told me what the Marine Air Wing was doing to use 
their aircraft as their wing commander wanted, vice what the joint 
force air component commander planned. They would pick a two-ship that 
was planned to attack a particular target in the area of operations, 
and subsequently use the same IFF code to surreptitiously allow 24 
aircraft to gain access into the combat area, and engage outside of 
joint command and control. This undermined the intent of unified joint 
air operations.
    The Marines have now codified in ``joint'' doctrine that they do 
not have to support joint force air component commander assigned 
missions until all Marine requirements are satisfied. Then, and only 
then, will Marine aircraft engage in support of the joint fight. The 
bottom line is that with unparalleled skill in bureaucratic 
maneuvering, the Marine Corps have actually ensconced their parochial 
position on the aircraft in their inventory into joint doctrine. When 
the United States engages in combat, it has national interests, not 
service interests. Our doctrine needs to reflect this.
    Let's jump forward 10 years to the opening nights of Operation 
Enduring Freedom (OEF). In this operation I was the director of the 
Combined Air Operations Center (CAOC) conducting air operations over 
Afghanistan. We had planners from all the services in the CAOC, and the 
difference regarding service component cooperation and teamwork was 
amazing compared to Desert Storm.
    One night the commander of the carrier air group who was working as 
the Navy liaison to the aircraft carrier operating in support of the 
OEF air operations, and without having to be asked, had the weapons 
reconfigured on the aircraft carrier deck to BLU-109 penetrating bomb 
bodies. He was part of a broader joint enterprise and knew what air 
operations were going to be targeting. This may not seam like a big 
deal, but it was an indicator that this individual was so attuned to 
the rapidly changing battle plan that he initiated necessary changes to 
facilitate combat operations without waiting or having to be asked. 
That sort of cooperative attitude is what ensures victory.
    There are many stories like these--demonstrating both good and bad 
examples of jointness. Unfortunately, since the beginning of the second 
phases of both operations in Iraq and Afghanistan, we have moved 
further away from the intent of Goldwater-Nichols than we have closer 
to it.
    We never established a true joint command organization in 
Afghanistan or Iraq. The U.S. Central Command (CENTCOM) leadership 
merely put a ``J'' in front of established Army organizations and 
passed them off as a ``joint task force.'' Look at the organizational 
diagram for Operation Anaconda (2002) and compare that chart with the 
organizational diagram of the 10th Mountain Division deployed--there is 
no difference except the title of the chart. There was a multi-national 
CORPS Iraq (MNCI), but no Joint Task Force-Iraq. In Afghanistan there 
was an International Security Assistance Force (ISAF), and an 
organization called United States Forces Afghanistan, but it had no 
service components. This presented a major problem because it inhibited 
true collaborative, cooperative strategy development and execution at 
the operational and tactical levels.
    The only way we will be able to consider alternate strategies and 
improve available courses of actions is to apply the joint process as 
it was intended. Otherwise, we will get locked into dogmatic courses of 
action that align with one service's view of the world, not a balanced 
enterprise approach.
    We are repeating this single service dominance again with CENTCOM's 
organizational structure associated with Operation Inherent Resolve--
the current operations against the Islamic State. The Commander in 
Chief (the President) has clearly stated that there will be no combat 
operations on the ground in either Iraq or Syria performed by United 
States Army or Marine ground forces, and that United States ground 
forces in the region will only act in an advise and assist capacity. 
The only direct application of U.S. military force in the region is 
airpower, but the designated joint task force commander for Operation 
Inherent Resolve was originally the CENTCOM Army component commander, 
recently replaced by a separate Army three-star general. How does this 
organizational arrangement optimize force employment when the service 
component with the preponderance of force and expertise (Air Force) in 
the application of force is not in command? We would never ask an 
infantry officer to get into an F-15 and execute a combat mission, so 
why are we executing this way at the strategic level? The earlier 
example of firemen doing surgery and visa versa comes to mind.
    Functional versus service component command organizations aim to 
optimize our military effects regardless of which service component 
provides them. First employed in Operation Desert Storm, the Joint 
Force Air Component Commander (JFACC) could not care less about what 
service from which an aircraft came. The operative means of including 
or excluding a particular service aircraft in the attack plans was 
determined by the capability the aircraft provided, not the service 
that provided it. This is the essence of joint warfare. To date, Joint 
Force Land Component Commanders (JFLCCs) do not do this type of 
integration. In OIF, while there was a nominal JFLCC, the Marines 
proceed up Iraq on the east side of the Euphrates, and the Army on the 
west. That was deconfliction, not integration. A Joint Force Maritime 
Component Commander (JFMCC) does not really execute joint command--
unless combined with another nation's ships--because only the Navy 
possesses combat ships.
    However, while Air Force officers are perhaps the most joint of all 
the services (almost half the Air Force budget goes to enabling the 
other military services), they have been historically excluded from 
joint command and staff positions. To optimize the solutions that our 
military provides to the nation, it is imperative that the options of 
exploiting the third dimension of aerospace be well understood and 
considered in military course of action development, planning, and 
execution. However, the military can't do any of those activities if 
Air Force leadership is absent from the key military organizations 
involved. To put this in context, here are the facts why this is an 
issue, and requires attention. From 2006 to early 2010, there were no 
U.S. Air Force officers in any of the top 11 positions in the 
Pentagon--the Chairman, the Vice Chairman, the Director, the J-1, 2, 3, 
4, 5, 6, 7, or 8 on the Joint Staff--almost 4 years with no leadership 
position on the joint staff.
    A look at the historical record of how the Air Force has fared in 
command assignments in the combatant commands is quite revealing. Since 
the establishment of regional combatant commands--the warfighting 
commands--on January 1st, 1947, there have been a total of 105 
commanders--only 6 have been Air Force officers. That is less than 6 
percent of the regional combatant commanders in the entire history of 
the Department of Defense have been from the Air Force. There is a 
story behind those statistics, and it is not a good one from a joint 
perspective. The issue here is not simply that the Air Force has not 
been given its ``fair share'' of joint task force command assignments, 
but that far more than just 6 percent of those areas of responsibility 
could have benefited from an air-centric perspective, as is the case in 
today's fight against the Islamic State. Furthermore, the Air Force 
needs to look at itself in the mirror in this regard to appreciate more 
honestly how it grooms, selects, and offers officers for these critical 
positions. The situation involves more than just other-service 
prejudice and turf protection.
    There is a very real difference of having a surface commander in 
command who believes all the other service components exist to provide 
support for surface operations; and a truly joint warfighting 
organization that seeks to build the best strategy without regard to 
domain or service. The best way to secure this outcome is engendering 
truly joint processes where soldiers, sailors, Marines, and airmen 
offer their expertise and perspectives to contribute to the objective 
defined by a joint force commander. However, all the formal doctrine, 
doctrine manuals, and agreed joint principles and practices in the 
world will be of no practical impact and worth without COCOM and joint 
task force commanders of whatever color of uniform prepared and 
determined to do the right thing in the national interest over their 
service interests. It can be accomplished--Gen Norman Schwarzkopf is an 
example of an Army general who commanded a joint operation with a joint 
perspective.
The U.S. Air Force and National Security
    Given the severity of the financial pressures facing the nation, it 
is important to reflect on why the nation has an independent Air Force. 
Services do not exist for their own benefit--they must stand forth as 
effective and valuable tools to implement American interests around the 
globe.
    The strategic narrative of the Air Force is to provide our nation 
global initiative. The Air Force has codified its strategic objectives 
as providing Global Vigilance, Global Reach, and Global Power. The 
global initiative enabled by these tenets emphasizes not only the 
agility of airpower capabilities, but also the flexibility that such 
capabilities provide to civilian leaders.
    Essentially, the Air Force is a capabilities-based force. This 
actuality makes it the nation's strategic hedge regarding future 
challenges. This is a highly desirable characteristic considering that 
we are horrible predictors of the future.
    Five unique contributions define the US Air Force in the context of 
its objectives of achieving Global Vigilance, Global Reach and Global 
Power--first, gaining control of air, space, and cyberspace; second, 
holding targets at risk around the world; third, providing responsive 
global integrated ISR; fourth, rapidly transporting people and 
equipment across the globe; and fifth, underpinning each of these 
unique contributions with robust, reliable, and redundant global 
command and control. However, the most important core competency of the 
Air Force is pervasive throughout all of these--and that's innovative 
thinking; the kind of thinking that manifest's itself in our Airmen 
over the history of the Air Force. As Air Force airmen, we embrace the 
ability to rise above the constraints of terrain, literally, and to 
transcend the strictures of the horizontal perspective.
    Before flight, wars were fought by strategies that hinged upon 
attrition, annihilation, and/or occupation. Surface warfare climaxed in 
World War I, with ground forces launching successive attacks over a 
narrow band of territory for nearly half-a-decade. The cost in lives 
and resources was overwhelming. Pioneering aviators flying over the 
battlefields realized that the air domain afforded an alternate path to 
secure victory. Instead of fighting foot-by-foot to capture enemy 
territory in a linear fashion, airmen could fly past opposing forces to 
strike critical centers of gravity, as well as over opposing forces to 
present them a maneuver force from the third dimension. Deprived of the 
means to sustain their fight, and coming under attack from above, an 
adversary could be weakened to ultimately face defeat.
    Turning the potential of this theory into reality took many years, 
resulted in countless lessons learned, and stimulated tremendous 
technological innovation. Throughout it all, Airmen remain fixed on 
their objective: providing our country's leaders with policy options to 
secure objectives effectively and efficiently, without projecting 
unnecessary vulnerability. The same vision holds true for the men and 
women serving in today's Air Force.
    Long-time military expert Dr. Ben Lambeth has astutely observed 
that today, ``when it comes to major conventional war against modern 
mechanized opponents, the classic roles of air and land power have 
switched places. Fixed-wing air power has, by now, proven itself to be 
far more effective than ground combat capabilities in creating the 
necessary conditions for rapid offensive success.'' Validating Dr. 
Lambeth's observation, a platoon leader during Operation Iraqi Freedom 
(Iraq 2003) at the leading edge of the push to Baghdad by the 1st 
Marine Expeditionary Force, wrote: ``For the next hundred miles, all 
the way to the gates of Baghdad, every palm grove hid Iraqi armor, 
every field an artillery battery, and every alley an antiaircraft gun 
or surface-to-air missile launcher. But we never fired a shot. We saw 
the full effect of American air power. Every one of those fearsome 
weapons was a blackened hulk.'' [Nathaniel Fick, One Bullet Away: The 
Making of a Marine Officer (New York: Houghton Mifflin, 2005), p. 289.]
    Evolved aerospace power has fundamentally altered the way the 
United States might best fight any future large-scale engagements. It 
has the ability to perform battlespace functions at less cost, with 
lower risk, and more rapidly than traditional ground force elements. 
Most notable in this regard is modern airpower's repeatedly 
demonstrated ability to neutralize an enemy's army while incurring a 
minimum of friendly casualties and to establish the conditions for 
achieving strategic goals almost from the very outset of fighting. 
Reduced to basics, modern airpower now allows joint task force 
commanders and their subordinate units both freedom from attack and 
freedom to attack.
    Aerospace power is based on the characteristics of technology--but 
the invention, development, and application of those instruments flow 
from human imagination, and knowledge. The Air Force seizes on the 
virtues of air and space to project power without projecting the same 
degree of vulnerability as operations in other domains, and as a 
result, it provides our nation with strategic alternatives simply not 
available any other way.
    Global/theater-wide aerospace power alone can conduct genuine 
parallel attacks, which means bringing multiple strategic and 
operational level centers of gravity under near simultaneous attack. It 
is through the use of parallel attack that it becomes possible to keep 
military operations short. Short wars brought about through parallel 
attack are dramatically less expensive in dollars and lives. Short is 
good, long is bad when it comes to war--or any other kind of strategic 
competition. Short should be the criteria for going to war and for 
executing it. Unfortunately, parallel operations and time compression 
can be difficult to explain and sell to those not versed in the ideas. 
This will be a challenge that must be overcome for both planning and 
for the development of a future force structure capable of parallel 
attack.
    Aerospace options provided by the Air Force shape, deter, and 
dissuade so we can attain fundamental national interests minimizing the 
need for combat operations around the world through collaborative 
engagement with partner nations, deterring potential adversaries, and 
reassuring allies that we will be there for them with credible 
capabilities should the need arise. When combat is necessary, aerospace 
capabilities yield a variety of strategic, operational, and tactical 
effects that provide disproportionate advantages.
    Today, our joint forces have the highest battlefield survivability 
rates not only because of the advances in medicine--but also due to our 
ability to rapidly get our wounded to critical care facilities--by air.
    Today, unlike the contests of the past--our joint forces go into 
combat with more information about the threat they face, and have 
better situational awareness provided in near real-time, and they get 
that information--from air and space, through cyberspace.
    Today, unlike the past, our joint task forces are able to operate 
with much smaller numbers, across great distances and inhospitable 
terrain because they can be sustained over the long-haul--by air.
    Today, navigation and precise location anywhere on the surface of 
the earth for application in both peace and war is provided by an Air 
Force GPS constellation--from space.
    Today, not only do surface forces receive firepower from the Air 
Force when they need it, but the adversaries our nation views as the 
greatest threat to our security are being eliminated by direct attack--
from the air.
    Air Force aerospace power will inevitably be pivotal in future 
wars. This is by far the most preeminent unifying theme that has 
emerged from the collective global combat experiences of the last 
quarter of a century. Operation Desert Storm in 1991; Operations 
Deliberate Force and Allied Force in the Balkans in 1995 and 1999, 
during the major combat phases of Operation Enduring Freedom in 
Afghanistan in 2001; Operation Iraqi Freedom in Iraq in 2003, 
Operations Odyssey Dawn and Unified Protector conducted over Libya in 
2011, and most recently, combat operations in Syria and resumed 
operations in Iraq. These operations underline the fact that the Air 
Force has been at war not just since 9/11/2001, but since 1991--now 
approaching 25 years. That said, even the most capable air posture 
imaginable can never make up for fundamentally flawed strategy--or a 
lack thereof. That, however, is not the topic today but perhaps is 
worth several hearings at another time.
    The nature of the modern security environment demands that we focus 
on not just sustaining, but accelerating Air Force contributions. 
Whether providing stand-alone options or serving as an integral part of 
joint operations, the Air Force is a vital national asset. Modern 
combat operations are simply not feasible without the capabilities 
afforded by the Air Force.
    Our nation has three services that possess air arms--the Army, 
Navy, and Marine Corps. Those air arms primarily exist to facilitate 
their parent services' core functions--their mastery of operations on 
the ground, at sea, or in a littoral environment. However, our nation 
has only one Air Force. Its reason for being is to exploit the global 
advantages of operating in the third dimension of air and space to 
directly achieve our security objectives around the world. It is this 
unique and specific focus of the Air Force that makes aerospace power 
America's asymmetric advantage.
    Said another way, while the other branches of the U.S. military 
have localized air arms suited to supporting their respective domain 
activities, only the U.S. Air Force possess the capabilities and 
capacity required to facilitate sustained global operations anytime, 
anywhere--and the perspective to exploit those capabilities in a way no 
other armed service has the expertise to provide.
 the rationale for a 21st century commission on roles and missions of 
                            the armed forces
    To move the Armed Forces from interoperability to interdependency 
requires a much more clearly delineated assignment of roles and 
functions than presently exists. We have the same services that 
resulted from the National Security Act of 1947. However, Defense 
Agencies have exploded since that time frame, as has the bureaucracies 
of the service secretariats; the Office of the Secretary of Defense 
staff; and the joint staff, as well as the oversight of the Department 
of Defense (DOD) by Congress.
    There have been a multitude of roles and missions reviews since 
1947--some substantive, others cursory. The current roles and missions 
of the armed forces are codified in DOD Directive 5100.01, ``Functions 
of the Department of Defense and Its Major Components.'' Although the 
current version was updated in 2010, it does not provide the kind of 
distinction among service functions that the current budget, 
technological capabilities, threat, and strategic environment that the 
information age demands.
    A quick look at the section in the current DoD Directive 5100.01, 
labeled ``Common Military Service Functions,'' is revealing:

    h.  Organize, train, and equip forces to contribute unique service 
capabilities to the joint force commander to conduct the following 
functions across all domains, including land, maritime, air, space, and 
cyberspace:

      (1)  Intelligence, surveillance, reconnaissance (ISR), and 
information operations, to include electronic warfare and MISO in order 
to provide situational awareness and enable decision superiority across 
the range of military operations.
      (2)  Offensive and defensive cyberspace operations to achieve 
cyberspace superiority in coordination with the other Military 
Services, Combatant Commands, and USG departments and agencies.
      (3)  Special operations in coordination with USSOCOM and other 
Combatant Commands, the Military Services, and other DOD Components.
      (4)  Personnel recovery operations in coordination with USSOCOM 
and other Combatant Commands, the Military Services, and other DOD 
Components.
      (5)  Counter weapons of mass destruction.
      (6)  Building partnership capacity/security force assistance 
operations.
      (7)  Forcible entry operations.
      (8)  Missile Defense.
      (9)  Other functions as assigned, such as Presidential support 
and antiterrorism.

    Given present resource constraints, we can no longer afford such 
overlap. A dollar spent in a redundant, ineffective fashion comes at 
the expense of necessary capability. Military leaders are presently 
balancing an unprecedented number of high demand, low density 
capabilities. The only way to help address those shortfalls is to 
improve the way in which we organize, command, equip, and oversee our 
military forces.
    Ensuring each of the Services are best aligned to conduct 
operations in their respective domains amidst austere budget 
conditions; a burgeoning global threat environment; and the new 
realities of the information age, demands that we reassess present 
roles, missions, and Service organization.
                       critical issues for review
    I have been privileged to participate in multiple defense reviews 
over the last quarter century starting with what was known as the 
``Base Force'' review in 1990; the Bottom-Up Review of 1993; the 
Commissions on Roles and Mission of the Armed Forces in 1994/95; the 
first Quadrennial Defense Review in 1997; the first National Defense 
Panel; I directed the Air Force Quadrennial Defense Review effort in 
2000/01; and I advised and informed the subsequent defense reviews 
during the remainder of my time on active duty.
    Fortunately, I was blessed in between those activities to 
participate in multiple contingency operations that afforded a variety 
of real-world perspectives. I was the principal attack planner for the 
Operation Desert Storm air campaign; commander of no-fly-zone 
operations over Iraq in the late 1990s; director of the air campaign 
over Afghanistan in 2001; twice assigned as a joint task force 
commander; and was the air commander for the 2005 South Asia tsunami 
relief operations. With more than 3,000 flying hours--400 in combat--I 
had multiple command assignments in the F-15. My last assignment was as 
the Air Force's first deputy chief of staff for intelligence, 
surveillance, and reconnaissance (ISR), where I orchestrated the 
largest increase in drone operations in Air Force history.
    After that quarter century of experience I have come to the 
conclusion that fundamental change in the roles and functions of the 
Armed Forces can only come from congressional legislation. The role men 
and women in uniform can best play is to help share insights and 
perspectives regarding the present state of affairs, where change is 
needed, and avenues for positive reform. Ultimately, I think we need to 
seriously consider a Commission on Roles and Missions in the 21st 
Century that may ultimately inform a revised National Security Act. In 
that regard, I offer the following topics for consideration:

    1. Congress: The respective Armed Service Committees could lead the 
way on defense reform if they mirrored 21st century capabilities versus 
a historic model that is reflective of last century military 
organization. Sea power is currently afforded its own subcommittee; 
land and air power are batched together and named after a previous 
version of Army doctrine; and no subcommittees are dedicated to cyber 
or space. One action you all have in your power to make to enhance 
oversight and focus in the all of the critical areas of defense in the 
21st Century is to split the airland subcommittee into a subcommittee 
on aerospace power, one on land power, and add a subcommittee on cyber 
operations.
    2. Cyber: As a ``man-made'' domain, cyber is fundamentally 
different from the natural domains of air, land, sea and space. The 
linear aspects of the traditional domains remain important, but our 
national security predicament cannot be understood in a holistic sense 
without an appreciation for the more complicated world of the man-made 
cyber domain. Nor can instruments from the cyber domain achieve their 
full potential as tools of foreign policy if they are simply filtered 
through the institutional command channels of traditional domains, 
including space. Yes, the cyber instruments can be useful in making 
traditional instruments of power more effective and should be tapped 
for this purpose. However, as is now being demonstrated on a continuing 
basis by our opponents, they also have autonomous potential for serving 
foreign policy goals independent from air, land, sea and space tools. 
Indeed, it is apparent that the private sector has moved far ahead of 
the DOD in advancing cyber technology in response to consumer demand. 
DOD is no longer the dominating production and marketing force.
    Against this background, all the services must consider how to 
engage more effectively in public-private ventures with leading 
technology entities. Needless to say, our potential ``wingmen'' in the 
cyber domain represent a very different culture from the profession of 
arms. We must learn to accommodate this new culture on a partnership 
basis or, alternatively, accept the necessity for a substantial new 
non-military enterprise to create and command a force structure for 
deterring and operating autonomous instruments emerging from the cyber 
domain. Either alternative requires that the military supplement its 
traditional focus on combined arms warfare with increased emphases on 
the more holistic question of desired effects and thereby open the door 
to an increased appreciation for non-kinetic instruments particularly 
in the cyber domain.
    Today's situation in operating in the domain of cyberspace is one 
that begs for more unification. Accordingly, it would be appropriate 
and useful to consider standing up a U.S. Cyber Command as a unified 
command along the lines and same model of the U.S. Special Operations 
Command. Each service would provide component expertise to the unified 
command from their unique domain perspectives. At the same time, the 
unified cyber command could begin to establish long needed policy in 
this realm that is so badly needed to establish cyber deterrence, and 
more effectively normalize cyber operations as fundamental in our 
contingency plans and planning.
    3. Space and Information: One perspective holds that not much 
benefit would currently come from standing up a separate space service, 
but there may be value in doing so at some point in the future. We may 
arrive at that juncture when our activities in space move from a 
predominant focus on what is occurring inside the atmosphere of the 
earth to a greater set of activities focused outside our atmosphere. 
Human conflict remains on land, at sea, and in the air. Space is 
critical to the success of, and combat in, the domains of sea, land and 
air, but lethal combat today remains inside the atmosphere. Until such 
lethal combat moves to space, there is little need for a separate space 
service.
    Space effects must be seamlessly integrated with the other domains 
in order to effectively fight and win. It happens best when integrated 
with the service components responsible for building the forces to 
fight and win. Creating a separate service would actually encourage 
investment in space for the benefit of the space service alone vice 
optimizing investment in the domains in which warfighting occurs.
    Why does each service maintain their own space command? The answer 
is simple yet complicated at the same time. Simple, because each 
service is critically dependent on space, therefore it needs some level 
of space expertise, and the best way to get it is with a component 
space command. Complicated because it creates inefficiencies and sub-
optimal concepts of operations. For example, we have chosen to make a 
joint area of ``expertise'' satellite communications (SATCOM). 
Accordingly, each service develops its own SATCOM systems. However, in 
a fight, we cannot effectively fight SATCOM because of the separate 
service responsibilities. We actually turn to a Defense Agency, Defense 
Information Systems Agency (DISA), to fight SATCOM. This is ludicrous, 
but we accept it in the name of jointness.
    Because it controls the preponderance of military spacecraft, the 
Air Force should be the single lead service for Operational Test and 
Evaluation of all space capabilities and the other services should have 
an information command that focuses on integrating all the information 
effects (ISR, space and cyber). I also believe the Air Force should 
have such a command ("vigilance command") to integrate ISR, cyber, and 
space operations. The key will be integrating information to achieve 
information superiority. Information superiority is the key to winning 
future conflict, and the sooner the Air Force stands up a ``Vigilance 
Command'' the quicker we will be able to adapt to the information age.
    On the other hand, there are those who believe the nation would 
benefit from a separate ``Space Force,'' with a relationship to the 
Department of the Air Force analogous to the Marine Corps' relationship 
with the Department of the Navy. Among the benefits of this options is 
that if properly organized, the Space Force would have responsibility 
for ballistic missile defense, and the Missile Defense Agency could be 
eliminated. Ballistic missile defense would be integrated with medium 
to high altitude air defense in this model, so the Army would have to 
give up Patriot and like future systems into the newly created Space 
Force. The Army would still be responsible for close-in air defense 
with their own man-portable or truck-mounted mobile missile systems, 
but they would give up the strategic, and theater-wide air and missile 
defense business. That could prove very beneficial in terms of our 
ability to integrate manned interceptor air defense with ground-based 
theater air defenses. Furthermore, with a single service (The Space 
Force) given responsibility for ballistic missile defense, there would 
be institutional backing to find practical solutions to the challenges 
posed by ballistic missile proliferation.
    Both of these alternatives described above deserve a comprehensive 
review that an objective, new commission on roles and missions could 
provide.
    4. Personnel: Changing force management from a system that values 
risk avoidance in decision-making to one that accepts risk tolerance as 
a minimum, and rewards innovative thinking. We need to create a culture 
and environment that encourages innovative thinking instead of 
discouraging it. More bureaucracy in the Pentagon, and in various 
headquarters staff does not help combat capability. It is worth noting 
the size of the Pentagon that won World War II was far smaller than the 
present enterprise.
    5. Concepts of Operation: The United States military is facing 
another technology-driven inflection point that will fundamentally 
reshape what it means to project power. Advancements in computing and 
network capabilities are empowering information's ascent as a dominant 
factor in warfare. In the past, the focus of warfare was predominantly 
on managing the physical elements of a conflict--planes in the sky, 
satellites in space, troops on the ground, amphibious elements and 
ships at sea. In the future, success in warfare will accrue to those 
who shift focus from a loosely federated construct of force application 
systems to a highly integrated enterprise collaboratively leveraged 
through the broad exchange of information.
    Said another way, desired effects will increasingly be attained 
through the interaction of multiple systems, each one sharing 
information and empowering one-another for a common purpose. This 
phenomenon is not restricted to an individual technology or system, nor 
is it isolated to a specific Service, domain or task. It is a concept 
that can loosely be envisioned as a ``Combat Cloud''--an operating 
paradigm where the preeminent combat systems of the past become 
elements in a holistic enterprise where information, data management 
systems, and command and control practices become the core mission 
priorities.
    Our military needs to learn better how to rapidly adapt new 
technology to the concepts of operation that technology enables. We 
need to realize and exploit the advantages of modern weapon systems and 
information age technology to build new concepts of operation; and we 
need to also realize that innovation can be applied to organization as 
well as from technology.
    To fully capitalize on these capabilities will require a new way of 
designing our force. We have to think outside of the organizational 
constructs that history has etched into our collective psyche. Network-
centric, interdependent, and functionally integrated operations are the 
keys to future military success. The future needs an agile operational 
framework for the integrated employment of U.S. and allied military 
power. It means taking the next step in shifting away from a structure 
of segregated land, air or sea warfare to integrated operations based 
on the four functions of ISR, strike, maneuver, and sustainment.
    We need to link aerospace and information-age capabilities with sea 
and land-based means to create an omni-present defense complex that is 
self-forming, and if attacked, self-healing. This kind of a complex 
would be so difficult to disrupt that it would possess a deterrent 
effect that would be stabilizing to where ever it is employed. The 
central idea is cross-domain synergy. The complementary vice merely 
additive employment of capabilities in different domains such that each 
enhances the effectiveness, and compensates for the vulnerabilities, of 
the others. The concept is that the ubiquitous and seamless sharing of 
information will form the basis of the third offset strategy.
    A tremendous strategic advantage will accrue to us if we exploit 
organizational innovation to develop an ISR-Strike-Maneuver-Sustainment 
Complex. This complex is not just about ``things.'' It is about 
integrating existing and future capabilities within an agile 
operational framework guided by human understanding. It is an 
intellectual construct with technological infrastructure.
    6. Process: The nature of large institutions is inhibiting rapid, 
decisive action that is required for success in the information age. We 
need to eliminate the ponderous, and excessively regulated acquisition 
processes that hinder innovation, increase cost, lengthen delivery 
times, and inhibit effectiveness. There is perhaps not a better 
advocate for reversing these burdens than the current Secretary of 
Defense, Dr. Ash Carter, so I will not elaborate on this topic here.
    However, a recent example that illustrates our ponderous process is 
that the decision on the long-range strike bomber (LRS-B) took way too 
long to make. As we move into an ever-accelerating future, the DOD has 
to learn how to make decisions quicker, and reverse the trend of adding 
expense and time by paying so much attention to `process' as opposed to 
`product.' Much of the delay on the LRS-B was driven by exquisite 
attention to excessive procurement rules and regulations in what is 
apparently greater concern with avoiding litigation that moving on with 
development of a critically needed capability.
    The DOD has fundamental difficulty in making force structure 
decisions that optimize cost-effectiveness--it limits alternatives to 
`stovepipes' restricted to similar platforms or within Service budgets 
rather than evaluating joint capability to achieve a particular effect 
across the spectrum of possible contributors regardless of Service of 
origin or what kind of system. While attempts to deal with this 
challenge have been instituted and exist today in the form of the Joint 
Requirements Oversight Council (JROC) and Joint Capabilities 
Integration and Development System (JCIDS) process, however, they more 
often than not result in ``lowest common denominator'' outcomes.
    One way ahead is to change the primary measure of merit in program 
decisions from individual unit cost to value, or cost per desired 
effect. Cost per unit is often used as a measure of merit in making 
procurement decisions. A more accurate measure of merit that captures 
real value or capability of a particular system is cost per target 
engaged, or better yet, cost per desired effect. In this fashion one is 
led to consider all the elements required to achieve a specific goal.
    We also need to think holistically about how we manage force 
constitution and acquisition. We simply cannot afford everything we 
want. We must prioritize. An option to be explored to optimally do that 
is to look at assessing the strategy via risk. What training, 
equipment, personnel expertise, etc. does it take to manifest various 
strategic options and how long does it take to constitute such 
capacity? I think the nation needs both soldiers and submarines to 
execute the defense strategy. However, given our limited resources, 
perhaps we need to take increased risk with force structure that we can 
reconstitute with relative speed and ease. We can recruit and train 
soldiers and Marines in a matter of months. It takes years to build a 
submarine and some of their key personnel. Such realities ought to be 
considered in the Pentagon and Capitol Hill. Present budget allocations 
do not show this realization.
    When managing forces in a period of austerity, we need to focus on 
the most complex capabilities that yield the U.S. its asymmetric 
advantages, while also retaining enough capacity and intellectual 
capability to surge the areas that allow for taking higher risk.
    7. Terminology. We need to think beyond the constraints that 
traditional military culture imposes on new technology. For example, 
5th generation aircraft such as the F-22 and F-35 are termed 
``fighters,'' but technologically, they are not just ``fighters''--they 
are F-, A-, B-, E-, EA, RC, AWACS-22s and 35s. Similarly, the new 
``long-range strike bomber (LRSB)'' will possess capabilities much 
greater than the ``bombers'' of the past.
    These new aircraft are actually more properly described as flying 
``sensor-shooters'' that will allow us to conduct information age 
warfare inside contested battlespace whenever we desire--if we fully 
exploit their ``non-traditional'' capabilities to the degree that those 
capabilities become accepted as the new ``traditional.
    Modern sensor-shooter aircraft enable the kind of interdependency 
that I described earlier. They are key elements in enabling U.S. and 
allied forces to work in an interdependent manner throughout the 
extended battlespace to deliver the effects or outcomes that are 
necessary for deterrence as well as war fighting dominance.
    With the already demonstrated capability of the F-22 to provide 
multi-tasking capabilities, including command and control (C2) for an 
engaged force, the ability to provide for C2 in an extended battlespace 
will be enhanced with the coming of the F-35 and the LRS-B, which are 
not simply replacements for old aircraft, but part of the C2 dynamics 
crucial to an ability to fight and prevail in challenging battlespace. 
Whereas adversaries are working towards trying to shape Anti-Access/
Area Denial (A2/AD), U.S. and coalition forces must shape their 
capabilities to render ineffective these A2/AD capabilities.
    8. Remotely Piloted Aircraft (Drones): Service mission sets need to 
be realigned to minimize duplication of effort and allow resource 
concentration to secure maximum value. A prime example in this regard 
lies with Remotely Piloted Aircraft (RPA)--commonly known as drones. As 
we move into a more fiscally constrained future we need to seek ways to 
optimize the effectiveness of all our medium and high altitude RPAs for 
the benefit of our joint warfighters. Joint Publication 2.0, 
Intelligence Support to Joint Operations, states, ``Because 
intelligence needs will always exceed intelligence capabilities, 
prioritization of efforts and ISR resource allocation are vital aspects 
of intelligence planning.'' Most would agree that demand for RPA 
exceeds supply and will continue to exceed it even after the services 
build all their programmed drones.
    This reinforces the notion that the best possible way to get ISR 
from medium and high altitude RPAs to our joint warriors is by 
allocating the capability to where it is needed most across the entire 
theater. It argues against assigning medium/high altitude RPAs 
organically to individual tactical units that preclude their benefit to 
the entire theater joint fight. Consider the analogy of a city made up 
of 50 blocks, where the mayor owns five fire trucks. If the mayor 
designated one truck to one block, those five fire trucks would be 
assigned to only five blocks. A joint approach would leave it up to the 
mayor--or Joint Force Commander--where to allocate the five fire trucks 
based on which blocks needed them most.
    Today, every Air Force operationally designated medium- and high-
altitude drone dedicated to CENTCOM is at the disposal of the joint 
task force commanders--there are no such things as Air Force targets--
there are only targets that are part of the joint campaign. That is not 
the manner in which Army or Navy possessed medium- and high-altitude 
drones are employed.
    At some point Med/Hi alt RPA will be allocated to theaters other 
than CENTCOM--perhaps in locations without a significant U.S. surface 
presence. Now, the Army assigns its medium altitude RPAs to individual 
units, which means if that unit is not in the war zone then neither are 
the RPAs. A joint approach applicable in any region of the world is 
already part of all combatant commands joint force air component 
operational concepts.
    The designation of an Executive Agency (EA) for medium-and high-
altitude RPA to oversee the standardization of all RPA that operate 
above a coordinating altitude; and lead research, development, test, 
evaluation and procurement of these systems, will be more efficient and 
cost effective than individual services duplicating their efforts; is 
an acquisition area in which DOD could realize tremendous dollar 
savings; and deserves reappraisal in this era of constrained resources.
    The objective of a joint approach is to get medium-and high-
altitude RPA ISR distribution to be as transparent as the global 
positioning satellite (GPS) signal is to all the services. GPS is 100 
percent owned by the Air Force; and 100 percent operated by the Air 
Force, and yet it is used by all the service components without any 
concern. We can do that with medium- and high-altitude RPA.
    It is instructive to note how medium- and high-altitude RPA can be 
used in a joint context. Air Force component provided RPA are routinely 
tasked to conduct tactical operations for our forces on the ground. 
During an operation as part of Operation Iraqi Freedom (OIF), when a 
sniper was pinning down Marine ground forces in Iraq, a Predator RPA 
flown by Air Force personnel from Nevada, spotted and identified the 
insurgent. The Predator delivered video of the sniper's location 
directly to a Marine controller in the fight, and he used that video to 
direct a Navy F/A-18 into the vicinity. Then the Navy jets' laser bombs 
were guided to the enemy position by the Air Force Predator laser 
designation of the target, eliminating the sniper. This engagement took 
less than 2 minutes.
    This is what joint warfare is all about, and a joint approach for 
the use of RPA is all about getting the most out of our ISR resources 
to increase this kind of capability for America's sons and daughters on 
the ground, at sea, and in the air, while promoting service 
interdependency, and the wisest use of American's tax dollars.
    9. Command and Control: While the increase in information velocity 
is enabling dramatic increases in the effectiveness of combat 
operations, there is also a downside. As a result of modern 
telecommunications, and the ability to rapidly transmit information to, 
from, and between various levels of command, there are many examples of 
``information age'' operations where tactical level execution was 
usurped by commanders at operational and even strategic levels. This 
devolution of the construct of centralized control--decentralized 
execution to one of centralized control--centralized execution has 
caused reduced effectiveness in accomplishing mission objectives.
    Discipline is required to ensure ``reachback'' does not become 
``reachforward.'' Centralized control--centralized execution represents 
the failed Soviet command model that stifled initiative, induced delay, 
moved decision authority away from execution expertise, bred excessive 
caution and risk aversion. The results of such a model against a more 
flexible command structure were evident in 1991, when Soviet-sponsored 
Iraq applied--unsuccessfully--similar C2 constructs against the US-led 
Coalition.
    Higher level of commanders, who are unwilling to delegate execution 
authority to the echelon with the greatest relevant situational 
knowledge and control, suffer from their remote perspective, create 
discontinuity, and hamstring the capability of commanders at the 
tactical level to execute a coherent, purposeful strategic plan. 
Growing accessibility to information requires the restructure of 
command and control hierarchies to facilitate rapid engagement of 
perishable targets and capitalize on our technological advantage. 
Information synthesis and execution authority must be shifted to the 
lowest possible levels while senior commanders and staffs must 
discipline themselves to stay at the appropriate level of war.
    The challenges of emerging threats, information velocity, and 
advanced technologies demand more than a mere evolution of current 
C2ISR paradigms, but rather a new approach that capitalizes on the 
opportunities inherent in those same challenges. We cannot expect to 
achieve future success through incremental enhancements to current C2 
structures--that method evokes an industrial-age approach to warfare 
that has lost its currency and much of its meaning. The requirements of 
information age warfare demand not ``spiral development,'' but modular, 
distributed technological maximization that permits and optimizes 
operational agility. That kind of agility will not be achievable 
without dramatic changes to our C2 CONOPS; our organizational paradigms 
for planning, processing, and executing joint operations; our 
acquisition processes; and a determined effort to match the results to 
the three critical challenges and opportunities, while simultaneously 
fitting them seamlessly into the context of joint and combined 
operations.
    10. The Nuclear Triad: The nuclear triad remains critical to U.S. 
security for five reasons: 1) It provides the needed survivable 
platforms of bombers, submarines and land based missiles to avoid 
dangerous instabilities that would come from a submarine only force 
that would reduce American nuclear assets to less than 10 targets; 2) 
It provides the needed flexibility of ICBM promptness, SLBM 
survivability, and bomber recall ability to hold at risk adversary 
targets across the nuclear and non-nuclear spectrum to give the 
President the necessary timely capability to stop aggression using the 
least force necessary; 3) It guards against technological surprise 
including an adversary finding our submarines at sea or markedly 
improving their air defenses; 4) It preserves the land based ICBM leg 
of the Triad that with 400 silo based missiles presents an adversary 
with the impossible task of targeting the force by surprise; and 5) 
Provides a significant hedge that allows expansion of the force should 
current arms control limits be abandoned or should the geo-security 
environment become significantly worse.
    11. Military Advice to the President: One of the downsides of the 
Goldwater Nichols Act--in terms of ensuring alternative courses of 
action regarding matters of war are heard by the President--is that the 
Act designated the Chairman of the Joint Chiefs of Staff (CJCS) as the 
principal military advisor to the President. The next National Security 
Act should specifically give the service chiefs access to the President 
in order to stop the filtering of advice. An anecdote from planning 
Operation Desert Storm illustrates the point.
    In the late fall of 1990, the President became aware that there was 
disagreement among the Joints Chiefs of Staff about plans for the war 
against Iraq. In response, he called a meeting at Camp David with the 
Joint Chiefs and others to be held just days after his request went 
out. Some of the air planners spent a considerable amount of time in 
those few days working with the Air Force Chief of Staff so that he 
would be prepared to make the airpower case that the war could be 
executed quickly and at a very low cost. The message got through, for 
in early January, the President asked just the Air Force chief and the 
Secretary of Defense to meet him at the White House where he asked the 
Air Force chief if he was still as confident as he had been at Camp 
David a few weeks previously. Receiving an affirmative response, he 
proceeded with the plans that led to an ultimatum to Iraq and 
commencement of the air-dominant war on the 16th of January.
    Although any military officer could have been involved in this type 
of discussion with the President, it is the Air Force professional that 
can give the clearest predictions as properly planned airpower 
operations connect directly and quickly to strategic objectives and are 
parallel in nature as opposed to the serial operations of land warfare 
where probabilities and costs are so difficult to forecast. These 
meetings not only illustrate the close connection of the airpower 
professional and the highest national objectives, but also suggest that 
the airpower professional has special and especially difficult roles to 
play in the current system of joint staff organization.
    During World War II, four senior officers had generally open access 
to the President and they frequently presented him with ideas as 
divergent as Europe first verses Pacific first and with emphasis on 
aircraft production as opposed to tank production. The President, as 
commander-in-chief, then made the decisions he was charged to make, but 
did so having had unfiltered advice from military experts. In today's 
world the President rarely receives unfiltered advice; instead, the 
CJCS, accompanied and supervised by the Secretary of Defense, 
summarizes the views of the other service chiefs and then makes his own 
recommendations. Representation of views with which you disagree is 
very difficult at best. As there are very clear philosophical and 
operational differences (or should be) between land, sea, and air 
officers, the chance that the president will hear a clear exposition of 
the differences is small. Thus, the likelihood of an informed decision 
on such momentous issues as war and peace is unlikely.
    This indeed was the situation in December of 1990 and had not the 
President learned of the significant disagreement within the JCS, 
decisions on the first Gulf War might have been far different. The role 
of the service leadership is to represent their perspectives 
forthrightly, and to be prepared to take the case to the highest 
leadership. This is not an easy charge in today's world, but it is one 
essential to accept. Ideally, however, there would be a serious 
reconsideration of our defense leadership structure and the service 
military leadership should be at the forefront with proposals and 
arguments.
    12. Joint Training. The past nearly 25 years of continuous combat 
operations have made the services the most joint capable forces in the 
world in conducting joint operations. But as we drawn down our combat 
operations and the services move back into garrison, The CJCS must be 
given the authority and the accountability for designing and directing 
aggressive and continuing joint training exercises and experiments. In 
the absence of that kind of effort, the services will retreat to their 
primary focus on using their limited resources to develop their service 
required skills and exercises and ``joint'' operations will become an 
after thought.
    13. Unit Organization, training and equipage. One of the treasured 
principles of Title 10 is the service prerogative to determine their 
own methods for ``organizing, training and equipping'' their forces and 
then defining how they will present those forces to a combatant 
commander who then has the authority, by the provisions inherent in 
definition of ``Operational Control'' reconfigure, reassign and combine 
organizations to meet his war fighting needs. Clearly those authorities 
are exercised with great caution because the combatant commander must 
weigh the risks associated with altering the basic structure of a 
combat unit to the opportunities for success by doing so to present a 
more capable warfighting force.
    This is often done however, in the rear area with logistics, 
administrative, security, communications, personnel, civil engineering 
and other enabling capabilities. So if the combatant commander has the 
authority to over rule the services in the way he may organize his 
gained forces, and by law, may direct the training regimens required of 
the services to prepare their forces to meet his unique theater needs, 
and then may adjust the equipage of those units, again to meet his 
needs, and the services must comply, one must ask why are the services 
so much different in the way they describe themselves in the ``Force 
For'' documents?
    Further why will one service offer capabilities down to and 
including only a single person and yet other services define a 
capability type and then tailor it, to include all of its organic 
enablers, as the minimum deployable package, thereby preventing its 
enablers to be used without deploying the entire package. The 
opportunity for efficiencies could be enormous if the services were 
made to become much more standard in the way they construct their 
tables of allowance and table of equipage.
    14. The Reserve Components: The value of National Guard and Reserve 
forces are critical if we are to craft a defense strategy that yields 
the nation strategic agility. As we seek to balance capability, 
capacity, and readiness, the reserve components' ability to surge in an 
affordable fashion, makes them incredibly important assets. They need 
to be at the center of options for managing the military in a time of 
austerity. It is important to recognize that Guard and Reserve forces 
are not just a force in reserve, or an force multiplier with a 
personnel cost savings, but when the reserve forces are used, they 
bring the rest of the nation into the decision making process.
    15. Sequestration. Because there is no public awareness of what is 
happening relative to the reduction in resources allocated to Defense, 
the hollow force that sequestration is imposing today will not be 
readily apparent until those forces are required. What is so 
devastating about sequestration--and not obvious in a 20 second sound 
byte--is that it is now affecting U.S. capability to provide rapid 
response sufficient to meet the demands of our security strategy.
    Said another way, we have a growing strategy-resource mismatch, and 
that dichotomy between what we say we want to accomplish, and what we 
can actually accomplish is growing. Without action to eliminate 
sequestration that mismatch will only get worse.
    I believe it is vitally important to remember that the first 
responsibility of the United States government is the security of the 
American people. As the preamble of our Constitution states, the 
federal government was established to first, ``provide for the common 
defense'' and subsequently, ``promote the general welfare.'' Recent 
decisions have confused this prioritization, with sequestration taxing 
defense spending at a rate greater than twice its percentage of the 
total federal budget. It's time to return to first principles and get 
our priorities straight.
                               conclusion
    The challenge before us is to transform today to dominate an 
operational environment that has yet to evolve, and to counter 
adversaries who have yet to materialize. The 9/11 commission report's 
now famous summary that the cause of that disaster was a ``failure of 
imagination'' cannot be allowed to be repeated across our security 
establishment.
    Another roles and missions commission will not be easy and is sure 
to upset many apple carts, but if we do not do it, our adversaries will 
capitalize on the ponderous, bloated, and inefficient structures, 
processes, and procedures that are currently in place and based on the 
conditions that existed immediately after WWII--we have too much at 
risk to let that happen again. The Islamic State does not have a JCIDS 
process.
    I finish with a plea for new thinking. In the face of disruptive 
innovation and cultural change, the military can maintain the status 
quo, or it can embrace and exploit change. I suggest that the latter is 
preferred. Our services need to learn better how to rapidly adapt new 
technology to the innovative concepts of operation that technology 
enables. Our intelligence community, military, and other security 
institutions will suffer if their internal organizations fail to adapt 
to new, disruptive innovations and concepts of operation.
    One of our most significant challenges is the structural and 
cultural barriers that inhibit the diffusion of new ideas that 
challenge the status quo. That is the challenge for not just our 
military, but for all the other pillars of our national security 
architecture. We must challenge our institutions to have an appetite 
for innovation--and a culture that rewards innovative solutions.

    Chairman McCain. Mr. McGrath?

  STATEMENT OF BRYAN McGRATH, DEPUTY DIRECTOR, THE CENTER FOR 
    AMERICAN SEAPOWER, THE HUDSON INSTITUTE, WASHINGTON, DC

    Mr. McGrath. Good morning, Mr. Chairman, Ranking Member 
Reed, and members of the committee. Thank you for this great 
civic honor today to be before you and to sit alongside these 
experienced individuals.
    The roles and missions defined at Key West were only part 
of the story of how national and military strategy were 
arranged during the Cold War to protect and sustain America's 
interests. Of equal and perhaps greater importance, in my view, 
was the strategic prioritization of those roles and missions, 
to the point where the Department of the Air Force was 
receiving nearly 50 percent of the defense budget late in the 
Eisenhower Administration.
    I am here today as a sea power advocate, and any reading of 
my work leads logically to that conclusion. But I am also a 
land power advocate, and I am also air power advocate. I am an 
advocate of preponderant American military power capable of 
deterring, fighting, and winning conflicts thousands of miles 
from our own shores, and I am concerned that the current force 
on its apparent trajectory does not maintain this 
preponderance.
    If we continue down the path we are on, one in which less 
and less is spent on defense as a function of our economy, as a 
function of total government spending, and as a function of the 
capability and capacity necessary, our preponderance will 
decline, and it will result in a force that looks 
proportionally much like this one, only capable of doing fewer 
things in fewer places to a lesser degree. I consider this path 
dangerous and risky, but unfortunately it is perhaps the 
likeliest path.
    There are two other general paths we could take. We could 
do what I believe is the most prudent thing to do, and this is 
to increase defense spending across the board on virtually on 
all components, capabilities, and capacities of the current 
force. Unlike the flag and general officers present at Key 
West, we have some idea of what the table stakes of great power 
competition are.
    Some consider this path to be unaffordable. I do not 
believe this this is true. We remain a very prosperous country. 
The fiscal restraints imposed on defense spending are self-
imposed and represent choices among competing priorities, but 
they are choices nevertheless. Choosing to de-weight military 
strength at the end of the Cold War was wise, but it is 
increasingly unwise in the emerging great power contention 
environment. This path would obviously cost more than we spend 
today, but it would involve relatively little in changing the 
strategic prioritization of roles and missions.
    The second path we could take is one in which we spend 
relatively similar to what we spend today and inflate it 
appropriately, but where roles and missions--certain roles and 
missions are prioritized in a return to the clarity of 
President Eisenhower and his assumption of risk through the 
making of tough strategic choices. Were we to do so, I believe 
that American sea power would merit greater emphasis, 
specifically because in its modern instantiation, it merges the 
sea power of the world's most powerful Navy, with the air power 
of the world's most lethal and mobile tactical air arm, and the 
land power of the world's most feared middle-weight land force, 
the U.S. Marine Corps. I see this force and a robust mix of 
Special Forces as capable of needing a substantial number 
assurance, presence, crisis response, and conventional 
deterrence needs of any appropriate national strategy.
    American sea power makes disproportionate contributions to 
important national security objectives. Sea power enables the 
homeland defense away game. Sea power bolsters critical 
security balances. Sea power provides for effective 
conventional deterrence. Sea power enables diplomacy and 
development. Sea power provides for modulated military 
responses and options for escalation and de- escalation as the 
case may require. Sea power shows the compassion and spirit of 
the American people on a global basis on disaster strikes.
    Of course, sea power cannot do it all. Campaign-level air 
and land power would continue to be what they have been for 
decades, war waging and war winning forces. But they would be 
overwhelmingly based in the United States, and they would be 
maintained in a somewhat reduced status.
    My written statement contains more detail with regard to 
the major movements of this future joint force, one that 
recognizes the virtues of friendly border neighbors, the 
geography of being thousands of miles from many of our security 
interests, and the reality of man's overwhelming proclivity to 
live and work near the sea. I look forward to laying out some 
of that detail in the questions period.
    I want to stress once again that this sea power-centric 
approach is not my first choice largely because I believe it 
assumes too much risk, but less risk than staying on the path 
we are on. I would much rather resource a larger, more powerful 
version of the current force, one I believe appropriate to the 
challenges ahead. Thank you very much.
    [The prepared statement of Mr. McGrath follows:]

                  Prepared Statement by Bryan McGrath
    All testimony herein represents the personal views of Bryan McGrath
    Thank you Chairman McCain and Ranking Member Reed, and all the 
members of the Senate Armed Services Committee for the opportunity to 
testify and to submit this written statement for the record.
    I am a defense consultant by trade, specializing in naval strategy. 
In early 2014, I joined with Seth Cropsey of the Hudson Institute to 
found a think tank devoted to Seapower, known as the Hudson Center for 
American Seapower. All of my adult life has been spent either in the 
Navy or working on matters of naval operations and strategy.
    On active duty, I commanded a destroyer, and I was the team leader 
and primary author of the 2007 USN/USMC/USCG maritime strategy known as 
``A Cooperative Strategy for 21st Century Seapower. Since leaving 
active duty in 2008, I have written and spoken widely about 
preponderant American Seapower as the element of our military power 
most that most effectively and efficiently promotes and sustains 
America's prosperity, security, and role as a world leader.
    It is an honor to appear before you and in the company of my 
esteemed colleagues. The nature of this hearing--an inquiry into the 
continuing relevance of the roles and missions compromise reached at 
Key West in the late 1940's--provides the opportunity for a more 
generalized discussion of the relative merits of Seapower, land power, 
and air power in the national security strategy of the United States of 
America. While the Key West Agreement went a long way toward containing 
the inter-service rivalry that characterized the immediate post-war 
defense bureaucracy, it took the Goldwater-Nichols Act of 1986 to 
finish off the Services as effective advocates for their own particular 
brand of military power, while creating an atmosphere of ``go along to 
get along'' in which consensus is viewed as the highest bureaucratic 
attribute. In fact, the interaction of Key West and modern Jointness is 
primarily responsible for the strategic sclerosis that predestines this 
nation--in these austere times--to a military that is increasingly 
misaligned with our interests and the strategic environment.
    The primary casualty of seventy years of Key West and Goldwater-
Nichols has been the loss of forceful, uniformed advocacy for the 
particular operational and strategic benefits of generally Service-
specific military modalities. The contributions of Seapower, land 
power, and air power in anything more than the tactical and theater 
operational sense has in no small measure been sacrificed on an altar 
of ``Jointness'' in which the contributions of all Services must blend 
harmoniously, and in which unseemly advocacy--and its likely threat to 
Jointness--is a guaranteed career shortener.
    That is why this hearing and this Committee's willingness to take 
hard look at where we are with Goldwater-Nichols--nearly thirty years 
after its passage--is so important.
    Our fighting force has become the envy of the world, and Jointness 
has a lot to do with that. Our ability to synthesize and synchronize 
the fires and effects of the four armed services in the space and time 
of our choosing is unmatched. Additionally, Jointness has the potential 
to create efficiencies in acquisition, so long as requirements and 
performance specifications are not unduly compromised in order to 
attain the ``one size fits all'' (or most) approach.
    Where Jointness has ill-served this country is at the level of 
strategy-making, both in terms of military strategy and the military's 
contribution to the making of Grand Strategy.
                   jointness, strategy, and resources
    Eight years ago while on active duty, I was the team lead and 
primary author of a document called ``A Cooperative Strategy for 21st 
Century Seapower'', which was a tri-service document (Navy, USMC, Coast 
Guard) that boldly proclaimed itself a ``maritime strategy'', a term 
that had not been used to describe any one of a half-dozen Navy and 
Department of the Navy strategic documents in the previous two 
decades--since the seminal ``Maritime Strategy'' of the Reagan era.
    In point of fact, Goldwater-Nichols and the rise of the Combatant 
Commanders created a sense among many in the national security field 
that strategy was no longer the purview of the Services, and that to 
the extent strategy was to be made, it would be done at the Combatant 
Commands and the Joint Staff. This view was summed up in a conversation 
I had in early autumn of 2007, just before the new maritime strategy 
was to debut. In it, my interlocutor, a friend who is now occupying a 
position of great responsibility in the Department of Defense, told me 
that ``Services make budgets, not strategy. You guys (the Navy) have no 
business in writing strategy.'' He was not alone in this assessment.
    We forged ahead with the Maritime Strategy in spite of those who 
felt strongly that we had no mandate to do so, and the result was 
generally well-received. In dissent, one prominent navalist opined that 
it (the strategy) was not Joint enough, and that we ignored the 
important contributions of the other Services. Keep in mind, this was a 
Seapower strategy, designed in no small measure to explain modern 
American Seapower and its unique contributions to national security and 
prosperity.
    The point of this discourse is to raise the issue that Jointness 
has risen to the level of attribute above all other attributes--not 
only in how the force fights, but in how it makes strategy. Military 
strategy and its contribution to grand strategy take as a starting 
position, a Joint force that is constituted from the pieces and parts 
and roles and missions largely enshrined at Key West. Key West 
essentially locked the contributions in place, with Goldwater-Nichols 
then enforcing the notion that while the individual service modalities 
were of course important, it was ONLY in their blending--in largely 
consistent shares--that goodness could be had.
    We can see evidence of this in how base budgets have been allocated 
in the post-Vietnam era. We often hear of a ``\1/3\, \1/3\, \1/3\'' 
split, but this is not correct. In fact, the Services only actually 
split 80% of the budget, as 20% is consumed by DoD activities. That 80% 
however, has been relatively consistently allocated over the years, 
with the Department of the Navy generally receiving the largest share 
(it contains two armed services), the Department of the Air Force next, 
and the Department of the Army the least. What is interesting though, 
is that the proportions remain relatively equal irrespective of the 
national military strategy. Put another way, we have had numerous 
defense-wide reviews since Goldwater-Nichols, to include the Base 
Force, the Bottom-Up Review, several National Security Strategies, 
several Quadrennial Defense Reviews, and the 2012 Defense Strategic 
Guidance. Although these reviews addressed markedly different security 
environments, the proportions allotted to the military departments 
remained generally stable. Supplemental funding is not included in this 
comparison.
    How can this be? How can base budgets remain relatively stable 
across a number of dramatically different security environments, 
including America as ``hyper-power'', the War on Terror, and the 
Rebalance to the Pacific? The answer is that Key West and Goldwater-
Nichols have created an atmosphere in which comity and consensus are 
the coin of the realm, and that consensus is ``purchased'' with defense 
spending that ensures each of the Services generally get much of what 
they want and rarely get all of it.
                   redundancy, inefficiency, and risk
    The roles and missions division that emerged from Key West 
enshrined redundancy and inefficiency, but in the process, these 
overages helped buy down risk, especially as the Cold War progressed. 
While existential threats lurked, a certain amount of inefficiency and 
redundancy was worthwhile, and strategically unobjectionable. It is 
important to remember that the reason Secretary Forrestal convened the 
Chiefs at Key West was in order to gain efficiency, to economize. 
Although he was relatively unsuccessful in this regard, Key West 
created a roles and missions architecture that could be relatively 
easily enlarged and diminished in response to the perceived level of 
threat from the Soviet Union. While Eisenhower eventually came to rely 
more heavily on nuclear weapons rather than conventional (with the USAF 
receiving nearly = the defense budget late in his second term), he did 
little to alter the roles and missions of the Services. Additionally, 
he had the luxury of spending nearly 10% of GDP on defense, nearly 
triple the proportion we allocate today.
    It cannot be stressed enough that Key West was convened largely to 
reach efficiencies and to economize, and not as a means to achieve 
strategic coherence or wholeness. As we face what appears to be a new 
era of great power contention, I am concerned that as we look at roles 
and missions, we do so not as an exercise in efficiency, but in the 
quest for the allocation of resources and forces best suited to deter 
and if necessary, win great power war.
    Put another way, the roles and missions debate is potentially less 
interesting than a debate about how those roles and missions are 
prioritized, and that prioritization discussion necessarily involves 
the concept of risk. That said, it seems strategically unwise to 
continue to spend a declining share of our national wealth on defense 
while maintaining the current departmental allocation consistency. We 
are creating a Joint force that is simply a smaller version of its 
predecessors, capable of doing fewer things, to a lesser extent, in 
fewer places, without any diminishing of the responsibilities assigned 
to it. We can go in one of three directions. We can continue to go in 
the direction that we are, which will ill-position us to protect and 
sustain our interests in an era of renewed great power contention. This 
is the most risky path but also the most likely. We can dramatically 
increase defense spending across the board, and increase the size and 
readiness of the Armed Services even as we modernize them, which is the 
least risky path, but in the absence of a triggering event or a 
political sea-change, highly unlikely. Or we can continue with the same 
general total outlay of defense spending but favor certain military 
roles over others. This is option is less risky than the path we are 
on, but it is potentially as politically unlikely as the broad based 
increase in defense spending.
    I wish to be on record as supporting the second option, a broad 
increase in military spending across the board. I believe this nation 
is dangerously ill-prepared to move forward in an era of great power 
contention, and I believe that the trajectory we are on will only 
decrease our fitness for these challenges.
                 if we prioritize, prioritize seapower
    Given that the political conditions for a broad increase in defense 
spending are unlikely to be achieved, and given that simply shrinking 
the current force will only increase the mismatch between our force and 
its likely operating environment, we must then consider placing bets on 
certain aspects of our military power; relying on them to a greater 
extent while we de-weight other capabilities, not because they are 
unimportant, but because they are less important to the missions of 
conventional deterrence and/or because such capabilities can be more 
rapidly reconstituted than other more capital intensive aspects of the 
force.
    In my view, if a well-conceived strategic approach were taken that 
1) weighted deterring and winning great power war higher than any other 
military endeavor and 2) allowed no sacred cows, modern American 
Seapower would be prioritized over land power and aerospace power. This 
is not to say that America does not need land and aerospace power; we 
certainly do. But the Department of the Navy is essentially a microcosm 
of the Joint Force as presently constituted. It clearly has the 
overwhelming amount of Seapower, although the Army has a large number 
of watercraft. It has the world's most mobile air component, though the 
Air Force clearly contains campaign level, war-winning air power. It 
has the world's most feared middleweight land force, delivered from the 
sea with mobility and flexibility, although the Army is clearly our 
most powerful land force. In other words, I am an advocate for land 
power and air power-and I believe they can most efficiently be 
delivered from the sea in order to protect and sustain our interests 
around the world. Additionally, if properly resourced, the land and air 
power contained within the units of issue of modern naval power--the 
Carrier Strike Group and the Amphibious Ready Group, would be 
sufficient for much of the day to day work of military diplomacy, 
assurance, presence and deterrence around the world, and would be the 
force upon which the war-winning power of the Army and the Air Force 
would marshal if a conflict outstripped available naval power.
    However, the Navy and Marine Corps as presently constituted would 
be ill-suited to this work. We are sized for peacetime forward presence 
of credible combat power in two theaters at a time--currently the Far 
East and the Arabian Gulf/Indian Ocean region. Our 271 ship, 186K 
Marine force is insufficient to service these forward deployed combat 
hubs, and worse, our national interests demand a return in force to the 
Mediterranean--where turmoil and unrest throughout North Africa and the 
Levant, threats to our ally Israel, and a new Russian ``keep out'' zone 
developing in the Eastern Mediterranean require United States answers.
    A Navy and Marine Corps capable of providing continuous and 
indefinite presence, assurance, and deterrence in three theaters 
simultaneously would necessarily be larger than the current force. It 
would be built around 15 Expeditionary Strike Forces each of which is 
comprised of a large, nuclear powered aircraft carrier, an amphibious 
assault ship, 8-10 surface combatants, two additional amphibious ships, 
two loosely attached attack submarines networked into an undersea 
constellation of unmanned, unattended, and or fixed surveillance, 
sensors, and weapons, shore-based maritime patrol aircraft and 
integrated maritime intelligence, surveillance, and reconnaissance 
unmanned platforms. This force would take decades to achieve, and would 
likely be in the neighborhood of 450 ships and 220,000 Marines.
    In fact, it is the time associated with achieving this force that 
argues strongly for moving quickly and investing steadily in peacetime. 
The framers of our Constitution faced a similar dilemma to what we face 
today. In relative terms, it was then--and remains today--less 
difficult (and expensive) to `` . . . raise and support Armies . . . 
'', than it is to `` . . . provide and maintain a Navy'' (U.S. 
Constitution Article I Section 8). Recently, the Army Chief of Staff 
gave a speech in which he attempted to dispel a number of ``myths'' 
about warfare. One of these myths was that ``armies are easy to 
regenerate''. This is of course, a straw man, as no thoughtful analyst 
considers it ``easy'' to regenerate an Army. The point though--one that 
the framers foresaw in the language of the Constitution--is not that it 
is easy to raise an army, but that it is EASIER than raising a Navy. In 
this regard, the Air Force is much more like the Navy than the Army. In 
simple terms, building ships takes a long time, and in our present 
industrial base--where there are few places that proper warships can be 
built--there is little or no surge capacity to ``ramp up'' in an 
emergency.
                geography is not destiny, but it matters
    Another reason to privilege the land power and air power resident 
in the sea power of the Department of the Navy is the great gift of 
geography that we enjoy. Our border nations are not military threats to 
our security. As the world's most powerful economic nation, our 
interests are global, and protecting and sustaining them requires the 
projection of power and influence across thousands of miles. This 
extended quotation from Congressional Research Service analyst Ron 
O'Rourke article in the Naval Institute's Proceedings (Jan 2012) says 
it best:
    ``Most of the world's people, resources, and economic activity are 
not in the Western Hemisphere, but in the other hemisphere, 
particularly Eurasia. Consequently, a key element of United States 
national strategy, going back many decades, has been to prevent the 
emergence of a regional hegemon in one part of Eurasia or another, 
because such a hegemon could deny the United States access to some of 
the Eastern Hemisphere's resources and economic activity. Preventing 
this is a major reason why the U.S. military is structured with force 
elements-including significant naval forces, long-range bombers, and 
long-range airlift-that enable it to cross broad expanses of ocean and 
air space and then conduct sustained, large-scale military operations 
upon arrival. The United States is the only country with a military 
designed to do this. The other countries in the Western Hemisphere 
don't attempt it because they can't afford it, and because the United 
States is, in effect, doing it for them. Countries of the Eastern 
Hemisphere don't do it for the very basic reason that they're already 
in that hemisphere, where the action is. Consequently, they instead 
spend their defense money on forces for influencing events in their own 
neighborhood.''
    Given our propitious geography and our friendly neighbors, there is 
a logical argument to be made to keep the land and airpower of the 
Department of the Navy in highest readiness with global capacity, while 
keeping the war-winning combat power of the U.S. Army's land power and 
the U.S. Air Force's air power largely--but not exclusively--garrisoned 
in the United States in smaller numbers than we have been used to. The 
nation would necessarily have to think through how most effectively to 
ramp up these two campaign level Services, and a more fluid mix of 
active, reserve and National Guard forces would likely result. Those 
elements of the Army and Air Force that support the day to day 
operations of the Navy and Marine Corps would also be kept in highest 
readiness, as would those portions of the Army that most resemble the 
capital intensive nature of the Navy and Air Force--specifically Army 
Aviation and Air and Missile Defense.
    The greatest risk of this Seapower-centric approach is that we 
simply could not generate enough ``war winning'' combat power fast 
enough to prevent a ``fait accompli'', especially one not proximate to 
the sea (for instance, Central Europe). Mitigating this threat would 
necessarily involve a greater reliance on the land forces of friends 
and allies. The risk could not however, be eliminated.
                               conclusion
    The most likely direction this nation will head (and the most 
dangerous) is to continue on the path it is on, a path to a smaller 
force that is increasingly inappropriate to the emerging security 
environment. This is because the forces of inertia are strong, both in 
the Pentagon and here on Capitol Hill. Additional money for defense 
seems unlikely, and just as unlikely would be a strategic re-
prioritization.
    The best option then would be to embark on a broad based defense 
increase, one that would grow the current force as allocated both in 
size and in capability. This I believe to be the soundest, most 
strategically wise course to take as China and Russia begin to assume 
larger roles in the world, and while spending more on defense would be 
a difficult political pull, it is probably more likely to happen than a 
strategic allocation of resources that challenges current paradigms and 
rice bowls.
    Should the nation move in the direction of a dialogue that would be 
less risky than the current path and less expensive than the broad 
based defense build-up, then shifting resources and priorities to the 
Department of the Navy to enable it to provide the global, day-to-day 
management force while the other Military Departments concentrate on 
support to those routine and crisis response operations and most 
importantly, the provision of war-winning, heavy, campaign level land 
and air power, is advised.

    Chairman McCain. Thank you. Dr. O'Hanlon? I might mention 
for the record the excellent new book called The Future of Land 
Warfare. Congratulations. Welcome.

   STATEMENT OF MICHAEL E. O'HANLON, PH.D., CO-DIRECTOR, THE 
    CENTER FOR 21ST CENTURY SECURITY AND INTELLIGENCE, THE 
             BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. O'Hanlon. Thank you, Senator. Very kind of you. I 
appreciate the honor to be here today as well.
    I really just want to make two main points in the spirit of 
the roles and missions conversation that we are having, and the 
first is to say that while many are looking to the Army as a 
preferred bill payer for other parts of the military, I think 
we have gone about far enough with this way of thinking. So I 
am not here to advocate for a larger Army, but I am very 
concerned about some of the ideas now being considered and 
presented, whether it is the strategic capabilities and 
management review that we heard about in 2013, whether it is 
some ideas that are out there now, for example, from former 
Chief of Naval Operations [CNO] Admiral Gary Roughead to cut 
the Army to below 300,000 active duty troops.
    Some of these ideas I believe would go too far. This would 
require a longer conversation, of course, about just what size 
Army is optimal, but I would simply make a historical point 
before moving on to my specific recommendations on roles on 
missions. The historical point, we always tend to assume that 
we have figured out how to avoid big ground wars, and for the 
last century we have had this tendency. When we have come out 
of a big conflict or a big crisis or competition, we have made 
that assumption, and we have been proven wrong.
    And so, I would simply observe, for example, up until World 
War I, we had a tiny Army, 17th or 18th in the world even as we 
were becoming the world's number one economic power. The 
argument was, well, we got away from all those Old World 
conflicts. Let us stay over here. We are safe. We do not need 
to worry about playing that Old World game of interstate war.
    And we all know we had to build up for World War I, but you 
would have thought that might have been the lesson, but after 
World War I we cut back to being the 19th largest Army in the 
world in the mid-1930s, and we all know what happened after 
that. You would have thought World War II would have taught us 
the lesson, and, of course, we did have to downsize from eight 
million soldiers. But nonetheless we downsized so much that in 
five short years, as this committee well knows, Task Force 
Smith was incapable of responding to North Korean aggression 
just five years later, just five years after we had had the 
world's most powerful military machine ever contemplated or 
invented on the face of the earth.
    And then, of course, we had problems in the Cold War 
period. We tried to fight the Vietnam War with tactics and 
weapons that I think were inappropriate to that fight. Then the 
lesson of Vietnam was no more Vietnams--excuse me. No more 
Vietnams. Let us not even have a military that can do that. Let 
us get the Army out of the counterinsurgency and stabilization 
business. Lo and behold, that seemed okay for Operation Desert 
Storm, but by the time we got to the wars of this century, we 
were not ready. It took us three or four or five years to 
really get the right tactics, and leaders, and concepts to be 
effective.
    And now, we risk doing it again. I do not think that the 
damage so far has been all that great, but I think we are 
starting to say things and think things that are worrisome. In 
addition to the ideas I just mentioned a few minutes ago about 
proposals for even deeper cuts in the Army, we now have the 
Quadrennial Defense Review [QDR] as a matter of official U.S. 
strategy saying we will no longer size the armed forces for 
prolonged large-scale stabilization missions. I just think this 
is ahistorical, unrealistic, and incorrect.
    President Barack Obama has every right and reason to try to 
stay out of big new operations in any specific place, like a 
Syria or where have you. But nonetheless, the idea that we can 
simply assume away these kinds of missions forever, which is 
essentially what the QDR says if you take it literally, I think 
is a mistake. So I would simply counsel that we have gone far 
enough in our thinking about downsizing the Army and putting it 
into a very specific limited set of missions.
    General David Petraeus was kind enough to launch my book 
with me last week, and he repeated the idea that I know he, and 
Senator Reed, and Senator McCain, and many others on this 
committee have discussed and heard about before. Our Army needs 
to remain an Army of pentathletes, people and forces that can 
do many different things and at scale, not in a boutique way, 
not in an overly limited way.
    One last set of thoughts.
    Chairman McCain. Let me--let me ask, in this scenario, what 
role and capacity is the Marine Corps?
    Dr. O'Hanlon. Well, my thinking is the Marine Corps is 
essentially right sized. The Marine Corps has a pretty good 
floor under its force structure. It is known for being very 
effective on Capitol Hill. It is known for being very effective 
with the American people. I think the Marine Corps in a sense I 
am taking as a given in the sense that it may fluctuate a 
little. But I think the Army is more likely to be the target 
for big new changes, and that is why I focused my attention 
there.
    Just a couple--because the committee has asked us to give 
specific recommendations, and like my fellow panelists I would 
like to just give a couple and then finish, because I am not 
trying to say that every Army program or every military program 
is just right today. I do think we need a somewhat larger 
defense budget increase than President Obama is calling for or 
that the recent budget compromise is calling for. But I think, 
you know, we need to make some reforms, as you said, Senator, 
and let me just list a couple.
    First of all, the Army has already managed to kill off most 
of its own weapons programs. It may not need a lot more help 
from the committee or anyone else, and I say that somewhat 
facetiously, but it is also somewhat true. In the last 20 
years, the Sergeant York, the armored gun system, the crusader, 
the Comanche, the future combat system, all of these have met 
their demise. The Army has had some troubles with 
modernization. It needs to go back to the drawing board. It is 
trying to do that, I recognize, but the Army is already 
thinking hard about how to scale back some of its modernization 
programs. So I will leave that as it is.
    On the Air Force, and Navy, and Marine Corps side, I think 
the F-35 Program is a good program, but I think it is 
oversized. In an era when we are doing so much more with 
drones, with space, with existing fourth generation systems 
like the A-10 and the F-16, I think that we do not need 2,450 
F-35s. I would encourage the other services to look at that 
number.
    I would also suggest that when the United States Navy under 
a man I respect greatly, former CNO Admiral Jonathan Greenert, 
says that nuclear modernization is its top priority, I would 
suggest the Navy ought to reconsider. We do need safe and 
reliable nuclear deterrent capabilities, but I do not think the 
Navy should have nuclear deterrence as its top priority. The 
world has changed. The details of our nuclear force 
capabilities to me are not as quite as important as the Navy is 
perhaps estimating. I want to see a little greater relative 
focus on conventional forces.
    And I think finally on the size of the Navy, I would submit 
that perhaps we can scale back the size of the carrier fleet by 
one or two if we are willing to put a little bit more land-
based tactical air power in the Persian Gulf. We have a lot of 
our allies now equally concerned about the rise of Iran. I 
think the idea of going back to some more permanent land basing 
for tactical fighter jets may enable us to reduce the strains 
and demands on the carrier force in the Persian Gulf. Thank 
you.
    [The prepared statement of Dr. O'Hanlon follows:]

               Prepared statement by Dr. Michael O'Hanlon
                       the future of land warfare
    By Michael O'Hanlon (author of the new book, The Future of Land 
Warfare)
    Greetings, Mr. Chairman, Mr. Ranking Member, and other Senators on 
the Committee. It is an honor to testify today as we stretch our 
imaginations to postulate what the future of warfare may be like--and 
thus what demands may be placed on different elements of America's 
military. I am here to argue in favor of the rough balance of resources 
that has characterized the U.S. Armed Forces in the past. My purpose is 
not to argue that landpower should be the preeminent military tool of 
the United States. Rather, I would like to challenge those who claim 
that its time has come and gone--and that the U.S. Army's size and 
budget should decline accordingly. I strongly disagree. An Army of some 
million soldiers, active and Reserve and National Guard, remains 
roughly the right size for the United States going forward--and in 
fact, that is a rather small and economical force relative to the scale 
of challenges and threats that I foresee. Moreover, that Army should 
continue to prepare for a wide range of possible scenarios, challenges, 
and missions. We cannot opt out of certain categories of warfare based 
on some crystal ball we purport to possess; the United States has 
always been wrong when it tried to do so in the past. To paraphrase the 
old Trotsky'ism, we may not think we have an interest in large, messy, 
dangerous ground operations in the future--but they may have an 
interest in us.
           military revolutions and the allure of technology
    In recent years, Americans have understandably gotten tired of land 
warfare. Fatigued by Iraq and Afghanistan, rightly impressed by special 
forces, transfixed by the arrival of new technologies such as drones, 
and increasingly preoccupied with a rising China and its military 
progress in domains ranging from space to missile forces to maritime 
operations, the American strategic community has largely turned away 
from thinking about ground combat. \1\ This is actually nothing new. 
Something similar happened after the world wars, Korean and Vietnam 
wars, and Operation Desert Storm in 1991 as well. That last time, 
debate shifted to a supposed revolution in military affairs. Many 
called for a major transformation in American military forces to 
respond to that presumed revolution, until the 9/11 attacks returned 
military analysis back to more practical and immediate issues. But now 
the strategic debate seems to be picking up about where it had left off 
at the turn of the century--except that in the intervening 15 years, 
remarkable progress in technologies such as unmanned aerial systems 
have provided even more grist for those favoring a radical transition 
in how militaries prepare for and fight wars.
---------------------------------------------------------------------------
    \1\ For good treatments of the capacities of special forces, that 
at the same time do not overstate their realistic roles or falsely 
imply the obsolescence of major combat units, see Phillip Lohaus, A 
Precarious Balance: Preserving the Right Mix of Conventional and 
Special Operations Forces (Washington, D.C.: American Enterprise 
Institute, 2015); and Brian S. Petit, Going Big by Getting Small: The 
Application of Operational Art by Special Operations in Phase Zero 
(Denver, Colorado: Outskirts Press, 2013).
---------------------------------------------------------------------------
    Much of this debate is welcome. Even if futurists understandably 
tend to get more wrong than right in their specific recommendations, a 
debate in which they challenge existing Pentagon rice bowls is 
preferable to complacency. As long as the burden of proof is on those 
who would dismantle proven concepts and capabilities when proposing a 
whole new approach to military operations and warfare, a world of too 
many ideas is preferable to a staid, unimaginative one of too few. The 
history of military revolutions suggests that established superpowers 
are more likely to be caught unprepared for, even unaware of, new ways 
of warfare than to change their own armed forces too much or too fast.
    That said, pushback against transformative ideas will often be 
necessary. We have seen many unrealistic military ideas proposed for 
the post-World War II American armed forces, from the Pentomic division 
of the 1950s that relied on nuclear weapons for indirect fire, to the 
flawed counterinsurgency strategies of the 1960s, to the surreal 
nuclear counterforce strategies from Curtis Lemay onward in the Cold 
War, to the dreamy Strategic Defense Initiative goals of the 1980s, to 
the proposals for ``rods from God'' and other unrealistic technologies 
in the revolution in military affairs debate of the 1990s. As such, 
wariness about new ideas is in order. Even in a great nation like the 
United States, groupthink can happen, and bad ideas can gain a 
following they do not deserve. Also, the United States has a history of 
cutting its ground forces too far and too fast after major challenges 
or conflicts have passed. For example, after World War I, we downsized 
until we had only the 17th largest army in the world as World War II 
approached; after the latter conflict, we cut the Army so fast that 
Task Force Smith was routed by the North Koreans just five short years 
later, in 1950.
    One hears much discussion again today about the supposed 
obsolescence of large-scale ground combat. Official American policy now 
leans in that direction too, as codified in the 2012 Defense Strategic 
Guidance and 2014 Quadrennial Defense Review, largely a result of 
frustrations with the wars in Iraq and Afghanistan. Accordingly, the 
2012 Defense Strategic Guidance, released under the signature of then-
Secretary of Defense Leon Panetta with a preface signed by President 
Obama, states flatly that ``U.S. forces will no longer be sized to 
conduct large-scale, prolonged stability operations.'' \2\ Later that 
same year, the Pentagon carried out a so-called Strategic Capabilities 
and Management Review that examined the option of reducing the Army to 
just 380,000 active-duty soldiers. \3\ Subsequently, the Ryan-Murray 
budget compromise of late 2013 and other considerations led to a less 
stark goal of 440,000 to 450,000 active-duty soldiers. But the 2014 
Quadrennial Defense Review again dismissed the plausibility of large-
scale stabilization missions, albeit somewhat more gently, stating that 
``Although our forces will no longer be sized to conduct large-scale 
prolonged stability operations, we will preserve the experience gained 
during the past ten years of counterinsurgency and stability operations 
in Iraq and Afghanistan.'' \4\ The emphasis changed somewhat, but the 
fundamental point was the same. Ground warfare, or at least certain 
forms of it, was not only to be avoided when possible--certainly, that 
is sound advice--but not even truly prepared for. That may be less 
sound advice.
---------------------------------------------------------------------------
    \2\ Department of Defense, ``Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense,'' Washington, D.C., January 2012, 
available at http://www.defense.gov/news/
Defense_Strategic_Guidance.pdf.
    \3\ Michael E. O'Hanlon, ``Sizing U.S. Ground Forces: From `2 Wars' 
to `1 War Plus 2 Missions,''' Washington Quarterly, vol. 37, no. 1 
(Spring 2014), pp. 151-164, available at https://twq.elliott.gwu.edu/
sites/twq.elliott.gwu.edu/files/downloads/O'Hanlon_PDF.pdf.
    \4\ Department of Defense, Quadrennial Defense Review (Washington, 
D.C.: March 2014), p. vii, available at defense.gov/pubs/
2014_Quadrennial_Defense_Review.pdf.
---------------------------------------------------------------------------
    There are lots of reasons to believe that, whether we like it or 
not, ground warfare does have a future, and a very significant one at 
that. Nearly three-fourths of the world's full-time military personnel, 
almost 15 million out of some 20 million, are in their nations' 
respective armies. \5\ Most wars today are civil wars, fought within 
states by ground forces. Interstate wars are rare, but when they do 
happen, they generally involve neighboring states and generally involve 
a heavy concentration of ground combat. America may be far away from 
most potential conflict zones, putting a greater premium on U.S. long-
range strike including air and naval forces than is the case for most 
countries. Yet the United States works with more than 60 allies and 
security partners that tend to emphasize their own armies in force 
planning, and tend to worry about land warfare scenarios within or just 
beyond their own borders. Iraq and Afghanistan revealed the limitations 
of standoff warfare, and the problems that can ensue when the nation 
places severe constraints on its use of ground power (especially in the 
first few years of each conflict).
---------------------------------------------------------------------------
    \5\ International Institute for Strategic Studies, The Military 
Balance 2014 (Oxfordshire, England, 2014).
---------------------------------------------------------------------------
    Here is another problem with the trend of our current national 
thinking: since the Cold War ended, the U.S. Army like much of the 
American armed forces has been built around the prospect of fighting up 
to two major regional wars at a time. That thinking has evolved--
especially in the years when the United States was actually fighting 
two wars at once, in Iraq and Afghanistan (and in the process 
eliminating one of the threats that two-war scenarios had been built 
around, the government of Saddam Hussein). Former Secretary of Defense 
Donald Rumsfeld's 2006 Quadrennial Defense Review began to shift the 
paradigm somewhat. The Pentagon's 2012 Defense Strategic Guidance and 
2014 Quadrennial Defense Review moved further away from a two-war 
construct without jettisoning it altogether. Now, in the second of the 
two overlapping wars, it is deemed adequate to ``inflict unacceptable 
costs'' on an adversary. \6\ But the vagueness of that latter standard, 
deterrence by the threat of punishment, and changes in the 
international security order, suggest that perhaps it is time to think 
afresh about the future of the U.S. Army and the other services. 
Planning for regional conflict will have to be a component of future 
force sizing, but with less specificity about likely foes than in the 
past, and with a fuller range of considerations to complement the 
contingency analysis.
---------------------------------------------------------------------------
    \6\ Secretary of Defense Chuck Hagel, Quadrennial Defense Review 
2014 (Washington, D.C.: Department of Defense, 2014), p. 22, available 
at defense.gov/pub s/2014_Quadrennial_ Defense_ Review.pdf.
---------------------------------------------------------------------------
    Some would counsel against preparedness for plausible military 
missions on the grounds that by being prepared, we might stray into 
conflicts that would have been best avoided. The 2003 Iraq War may be a 
recent case in point--a ``war of choice,'' in Richard Haass's pithy 
depiction, that would surely not have been undertaken without a ready 
and fairly large standing military. \7\ But for every such case in U.S. 
history, there are probably several--as with the world wars, and Korean 
War--in which lack of preparedness proved an even greater problem. 
Moreover, in Iraq and Afghanistan, improper preparation for a certain 
type of fighting arguably made the initial years in both these wars far 
less successful than they might have been. Nor is it so clear that the 
United States is really spoiling for military action abroad. Americans 
may not be as restrained in the use of force as they often like believe 
about themselves. Yet at the same time, casual aversion--and, more 
recently, a national souring about the kind of ground operations 
conducted in Iraq and Afghanistan--impose important constraints on 
action as well. Deliberately staying militarily unprepared for 
plausible missions, as a way of avoiding unsuccessful military 
operations abroad, thus seems an unwise and highly risky strategy for 
the nation.
---------------------------------------------------------------------------
    \7\ Richard N. Haass, War of Necessity, War of Choice: A Memoir of 
Two Iraq Wars (New York: Simon and Schuster, 2009).
---------------------------------------------------------------------------
    plausible scenarios that could threaten core american interests
    In the interest of brevity, I will conclude this written testimony 
with a list of the ten scenarios that I develop and analyze in my new 
book. None except perhaps the Syria contingency is individually likely. 
But all bear watching. Each could seriously threaten major American 
national security interests including even the basic safety of the 
homeland if it took place. As such, while we might try (and arguably 
should try) to stay out of most of them even if they begin to unfold, 
we might also find that there is ultimately little choice but to 
intervene as part of a joint, coalition operation. For several in 
particular, maintaining the capacity to conduct them promptly and 
effectively could strengthen deterrence, making the very possibility of 
war less than it would be otherwise. Here is my list:

    <bullet>  A Russian invasion threat to the Baltic states
    <bullet>  A second Korean war, including possible Chinese 
involvement
    <bullet>  A maritime conflict between China and Japan or the 
Philippines that spills over onto land
    <bullet>  A fissioning of Pakistan, perhaps combined with a complex 
humanitarian emergency sparked by a major natural disaster in South 
Asia
    <bullet>  Indo-Pakistani war, perhaps over a terrorist strike, with 
Kashmir providing the spark
    <bullet>  Iranian use or threatened use of nuclear weapons against 
a neighbor
    <bullet>  A major international stabilization operation, as in 
Syria after a negotiated peace
    <bullet>  Civil war accompanied by terrorism and perhaps a 
biological pandemic within Nigeria . Increase in the brutality and 
reach of criminal networks in Central America
    <bullet>  A major domestic emergency in the United States

    Consideration of these scenarios leads me to advocate a million-
soldier U.S. Army, similar to today's capability, with roughly the 
current mix between active component and reserve component forces. The 
Marine Corps would retain roughly its current size and strength as 
well. Under my proposal, the ground forces would be sized, equipped, 
trained, and prepared for what I call a ``1+2'' framework--with the 
``1'' contingency being a large-scale conflict (like some of the more 
demanding operations suggested above, such as Korea) and the ``2'' most 
likely long, multilateral operations involving some combination of 
stabilization, relief, counterterrorism, deterrence, and assistance to 
local partners. All three operations could occur at the same rough time 
period (and if they did, we would need to start growing the Army as 
well, in anticipation of possible further demands).
    Such messy missions may not be what we want as a nation. They 
certainly are not what our brave soldiers (and other members of the 
joint force, as well as diplomats and aid workers) might prefer to 
conduct in faraway lands. But in this complicated, huge, 
interdependent, dangerous world, they probably will be in our future 
whether we like it or not.

    Chairman McCain. Thank you. Mr. Martinage?

STATEMENT OF ROBERT C. MARTINAGE, SENIOR FELLOW, THE CENTER FOR 
     STRATEGIC AND BUDGETARY ASSESSMENTS, WASHINGTON, D.C.

    Mr. Martinage. First off, I would just like to thank the 
committee for the opportunity to share my views on how we might 
realign the roles and missions of the armed forces to better 
addresses emerging operational and strategic challenges, as 
well as take more advantage of new opportunities.
    I would like to focus my remarks on three broad areas for 
potential change: the possible creation of new services for 
space, cyber, and special operations, the need for increased 
service specialization, and the concept of what I call 
comparative jointness, meaning encouraging healthy intra- and 
inter-service rivalry to foster innovation.
    So, first, creating new services. While few argue that air 
power merited an independent service in the immediate wake of 
World War I, the momentum behind the establishment of the 
Department of Air Force was strong by the end of World War II. 
Today in comparison to air power, cyber and space forces are 
arguably somewhere in the later inter-war period. Cyber and 
space warfare capabilities have been developed, but have yet to 
be tested in high intensity combat.
    So looking specifically at cyberspace, it has clearly 
become a vital operational domain for U.S. military forces that 
is similar, but yet unique, from the air, sea, and space. 
Unlike the other warfare domains, it encompasses physical 
elements, such as communications infrastructure, and computer 
networks, electromagnetic radiation, traveling through air and 
space, and the virtual world of computer code and data 
processing. It is distinct culturally as well. We are requiring 
different types of warriors to fight it.
    Given these myriad differences and its growing importance, 
cyber warfare may warrant an independent branch of the armed 
services. As a step in this direction, in 2010 DOD's U.S. Cyber 
Command, which is staffed in large part by the services, but in 
addition each service maintains its own cyber component that is 
technically subordinate to Cyber Command, but is also 
controlled by the respective service chain of command. This 
approach has a number of drawbacks, including duplication of 
effort, potential inconsistency across the Joint Force, and 
lack of continuity as personnel rotate in and out of their 
cyber positions every three years.
    An independent service focused on cyber operations would 
offer at least six potential benefits: unity of command, better 
enforcement of common cyber and information technology 
standards, different recruiting standards, training programs 
and retention strategies, dedicated career paths to enable the 
development of deep technical and operational expertise over 
time, the formulation of cyber and operational concepts and 
doctrine independent of the parent service culture, and 
centralized management of cyber manpower and resources. Of 
course, there are some potential downsides, which I also get 
into in my prepared statement.
    With respect to space, while each service has its own space 
professionals, most of the expertise currently resides within 
the Air Force. But space operations are fundamentally different 
from air operations. The laws of aerodynamics govern activities 
in space, whereas the laws of aerodynamics govern air power. 
Like space--like cyber--excuse me--space operations require 
specialized skill sets, training, equipment, operational 
concepts and doctrine. The culture of the space community is 
also far different from the very pilot-centric one that 
dominates the Air Force. Accordingly, it may be worth 
considering the establishment of an independent service to 
organize, train, and equip space warfare operators.
    In 2010, Congress created the Commission--I mean, in 2001 
created Congress created the Commission to Assess United States 
National Security Management and Organization, the so-called 
Rumsfeld Commission, that looked at the specific issue. At the 
time, they decided the disadvantage of creating a separate 
space service outweighed the advantages. As they put it at the 
time, there is not yet a critical mass of qualified personnel, 
budget requirements or missions sufficient to establish a new 
Department. They did, however, leave open the possibility that 
a military department of space might be needed at some future 
date.
    I think it is instructive to reflect on what has or, more 
importantly, what has not happened over the past 14 years since 
that commission was formed. First, United States space systems 
have increased significantly, most notably from China and, to a 
lesser degree, from Russia, and it is not at all clear that we 
are keeping pace with the threat. Second, until recently most 
of DOD's larger space system acquisitions experienced 
considerable difficulty. The past decade is littered with 
failed or canceled programs, ones with staggering costs and 
scheduled overruns.
    Third, while financial and program turbulence exacted a 
toll on the space industrial base across the board, the U.S. 
space launch sector has severely atrophied. For over 15 years, 
for example, the United States has been in the very unfortunate 
position of having to purchase RD-180 rocket motors designed 
and built in Russia for use on the Atlas 3 and 5 space launch 
vehicles owing to the lack of a domestic supplier.
    In short, most of the urgent items identified by the 
Commission 14 years ago remain partially or completely 
unaddressed. It certainly appears that the Nation has become 
more, not less, vulnerable in space. While threats have 
intensified and proliferated, space-related acquisitions have 
been slow and disordered, and the U.S. industrial base has 
grown weaker. While it is impossible to say with certainty, the 
focus of attention--the focused attention of a dedicated space 
service may have prevented some of this downward slide.
    Like Cyber Command, there are a number of benefits of 
potential new space service in the years ahead dealing with 
recruitment, space career paths, space operational concepts, a 
dedicated funding stream, and the concentrated and dedicated 
management of space systems acquisitions. It is a long list.
    Switching now to Special Operations Command [SOCOM]. SOCOM 
is a hybrid organization like the services. It is a force 
provider to the combatant commands, but like the other 
combatant commands it is involved in operational planning, 
force allocation, and, in some cases, execution of military 
operations. The primary reason to consider elevating SOCOM to a 
full-fledged service would be to give it far more flexibility 
in managing the career paths of its highly-skilled operators, 
both enlisted and officers.
    I would like to switch now to the second major topic, 
increased service specialization. There are many unintended 
consequences of the Key West Agreement as reinforced by 
Goldwater-Nichols. First, the service budget allocations have 
remained fixed over the past three decades, which has stifled 
innovation. Second, there is an everyone plays mentality when 
it comes to contingency planning and, thus, resource 
allocation. Within the respective Key West stovepipes, the 
services have over invested in capabilities for conducting 
operations in medium threat environments with the implicit 
reasoning that such capabilities can swing to the low end or to 
the high end. The problem, however, is that such middle of the 
road capabilities are often inefficient in terms of cost with 
respect to lower-end contingencies, and inadequate 
operationally for higher-end ones.
    In my prepared remarks, I have a series of examples of how 
the Marine Corps, the Army, and the Air Force, and Navy might 
become more specialized to deal with both these low- end and 
high-end threats, and I am happy to discuss in the questions if 
you are interested.
    The third major area for change is what I call competitive 
jointness. Intra- and inter-service competition should be more 
strongly encouraged. The inter-service crowding into each other 
battle space, if managed properly, could give the services--
keep the services on their toes, foster innovation, and lead to 
a more robust future force. A competitive approach to joint 
operations would allow alternative service concepts to vie for 
incorporation and to regional contingency plans and, thus, 
demand a larger share of the budget.
    To enable competitive jointness, some of the service 
monopolies on specific missions protected as ``primary 
functions'' in Secretary James Forrestal's memorandum in 1948 
and that have hardened over time will need to be opened to 
competition. Many of the collateral functions enumerated for 
each service, but largely ignored since 1948, will need to be 
elevated in importance. Again, I have a lot more detail on 
those examples of how we might foster more intra- and inter-
service competition for--to foster innovation in my prepared 
remarks.
    So to conclude, the emergence of new capabilities in the 
evolving threat landscape demand a fundamental re-look at the 
Key West Agreement and the subsequent evolution of service 
roles and missions. It may well be time to establish new 
independent services for space and cyber, as well as to elevate 
SOCOM to a full-fledged service. Given flat or declining 
resources for defense and ongoing threat trends, service 
investments that focus on being a jack of all trades but master 
of none are increasingly problematic. Accordingly, increased 
service specialization in selected areas should be given 
serious attention.
    And finally, intra- and inter-service competition should be 
more strongly encouraged as a means of fostering innovation. To 
do so, many of the service mission monopolies that have 
hardened since 1948 will need to be broken, and many of the so-
called collateral missions that have been ignored or under 
invested in to date will need to be elevated in importance.
    Thank you.
    [The prepared statement of Mr. Martinage follows:]

                 prepared statement by robert martinage
    Chairman McCain, Ranking Member Reed, and members of this 
distinguished committee, thank you for the opportunity to share my 
views on how we may need to realign the roles and missions of the Armed 
Forces to better address emerging operational and strategic challenges, 
as well as to exploit new opportunities for sustaining U.S. military 
superiority.
    After private meetings with the Joint Chiefs a month earlier in Key 
West, Florida, Secretary of Defense Forrestal signed out a memorandum 
codifying the ``Functions of the Armed Forces and the Joint Staff'' on 
April 21, 1948. The Department of Defense (DoD) was wrestling with 
three major internal issues at the time: the creation of the Air Force 
as a full-fledged military Service, the division of responsibilities 
for deterrence and warfighting in the atomic age, and the role of the 
U.S. Marine Corps relative to the U.S. Army with respect to 
conventional power projection. Externally, the Soviet Union was in the 
process of consolidating control over Eastern Europe and had not de-
mobilized following World War II to nearly the same degree as the 
Allies. The Soviet blockade of Berlin was intensifying, which would 
lead just two months later to the commencement of the Berlin Airlift. A 
little more than a year later, the United States would lose its atomic 
monopoly with the Soviet's successful test of an implosion device in 
August 1949. Unbeknownst to the participants at the Key West meeting, 
two years later, the Nation would be engaged in a large-scale war on 
the Korean Peninsula.
    Today, DoD arguably faces an even wider array of threats, 
opportunities, and planning uncertainties. After more than a decade of 
sustained military operations in Afghanistan and Iraq, the United 
States military continues to confront a range of global security 
challenges. In Europe, Russia is resurgent and increasingly assertive 
in its near abroad. In the Middle East, the Syrian civil war is heating 
up with the involvement of a growing number of external powers, Iraq is 
unstable, the Islamic State of Iraq and the Levant (ISIL) has risen to 
power, and Iran continues to expand its ballistic missile arsenal as it 
drives toward a nuclear weapons capability. In Central Asia, the 
security situation in Afghanistan remains tenuous and will likely 
deteriorate as United States forces withdraw over the coming year. In 
East Asia, an unstable, nuclear-armed North Korea remains as 
belligerent as ever, while China pursues hegemonic ambitions, becoming 
increasingly confrontational in the South China Sea. The metastasizing 
radical Islamic threat has spread from the Middle East and Central Asia 
into Africa. At the same time, traditional sources of U.S. military 
advantage are being undermined by the maturation and proliferation of 
disruptive technologies--most notably, anti-access/area-denial (A2/AD) 
capabilities. \1\ DOD must also come to grips with the emergence of war 
in two new domains: space and cyberspace.
---------------------------------------------------------------------------
    \1\ ``Anti-access'' refers to the ability to slow or prevent the 
deployment of U.S. forces into a given theater of operation or cause 
them to base operations farther away than would be preferred. ``Area 
denial'' captures actions to restrict freedom
---------------------------------------------------------------------------
    The roles and missions of the Armed Forces need to be realigned to 
better address these manifold challenges and preserve U.S. military 
superiority in the decades ahead. In addition, while beyond the scope 
of this hearing, closely related adjustments are also needed to the 
Joint Staff model established with the Goldwater-Nichols Department of 
Defense Reorganization Act of 1986 and the current Unified Command Plan 
(UCP). The remainder of my remarks will focus on three broad areas for 
change: the possible creation of new Services for space, cyber, and 
special operations; the need for increased Service specialization; and 
the concept of ``competitive jointness,'' meaning encouraging healthy 
intra-and inter-Service rivalry to foster innovation.
                         creating new services
    While few argued that air power merited an independent Service in 
the immediate wake of World War I, the momentum behind the 
establishment of the Department of the Air Force was strong by the end 
of World War II. Today, in comparison to air power, cyber and space 
forces are arguably somewhere in the late inter-war period. Cyber and 
space warfare capabilities have yet to be tested in high intensity 
combat. The dominant view in the national security community, however, 
appears to be shifting from not whether there should be separate cyber 
and space Services, but when to take those steps. While U.S. Special 
Operations Command (SOCOM) is now well established, has proven itself 
repeatedly in operations over the past decade, and has the lead for DoD 
on counter-terrorism operations around the world, it may now be time to 
reinforce success and elevate it to a full Service.
                       toward a new cyber service
    Cyberspace has become a vital operational domain for U.S. military 
forces that is similar--and yet unique--from the air, sea, land, and 
space. \2\ Unlike the other warfare domains, it encompasses physical 
elements (e.g., communications infrastructure and computer networks), 
electromagnetic radiation traveling through air and space, and the 
virtual world of computer code and data processing. It is distinct 
culturally as well, requiring different types of warriors than the 
other Services. Given these myriad differences and its growing 
importance, cyber warfare may warrant an independent branch of the 
Armed Services to recruit, organize, train, equip, and retain skilled 
personnel; prioritize and manage financial resources; and develop 
domain-relevant operational concepts and doctrine.
---------------------------------------------------------------------------
    \2\ For an excellent argument in favor of an independent cyber 
Service, see Admiral James Stavridis and David Weinstein, ``Time for a 
U.S. Cyber force,'' Proceedings, January 2014.
---------------------------------------------------------------------------
    While most cyber attacks against American entities have been 
motivated by espionage or greed, there have also been attempts to 
sabotage critical infrastructure. China, Russia, and other prospective 
adversaries have established dedicated cyber units and write frequently 
about the employment of cyber weapons. The People's Liberation Army 
(PLA), for example, has cultivated a comprehensive computer network 
attack capability over the past decade concentrated within the Fourth 
Department of the General Staff Department. \3\ While most of China's 
cyber activity to date has focused on intelligence collection, it has 
demonstrated a sophisticated penetration and exploitation capability. 
\4\ There is also a strong possibility that Chinese actors have left 
behind malware in DoD systems. In light of PLA doctrine, in the event 
of hostilities, it is likely that cyber attacks would be focused on 
U.S. and allied C4ISR and logistic support networks.
---------------------------------------------------------------------------
    \3\ Bryan Krekel, Patton Adams, and George Bakos, ``Occupying the 
Information High Ground: Chinese Capabilities for Computer Network 
Operations and Cyber Espionage,'' report prepared for the United 
States-China Economic and Security Review Commission, March 7, 2012.
    \4\ Kevin Pollpeter, ``Controlling the Information Domain: Space, 
Cyber, and Electronic Warfare,'' in Tellis and Tanner, eds., China's 
Military Challenge--Strategic Asia 2012-2013, pp. 172-177.
---------------------------------------------------------------------------
    In 2010, DOD stood up U.S. Cyber Command, and in 2013 it activated 
the Cyber Mission Force comprising National Mission Teams, Combat 
Mission Teams, and Cyber Protection Teams--all of which are staffed by 
the Services. \5\ In addition, each of the Services maintains its own 
cyber component that is technically subordinate to Cyber Command, but 
also controlled by their respective Service's chain of command. This 
approach has a number of drawbacks, including duplication of effort and 
lack of continuity as personnel rotate in and out of cyber positions 
every 2-3 years. An independent Service focused on cyber operations 
would offer a number of potential benefits:
---------------------------------------------------------------------------
    \5\ Stavridis and Weinstein, ``Time for a U.S. Cyber Force,'' 
Proceedings, January 2014.

    <bullet>  Unity of command;
    <bullet>  Promulgation and enforcement of common cyber and 
information technology standards;
    <bullet>  Tailored recruitment standards (e.g., relaxed physical 
fitness and dress/grooming requirements), training programs, and 
retention strategies;
    <bullet>  Dedicated career paths to enable the development of deep 
technical and operational expertise over time;
    <bullet>  Formulation of cyber operational concepts and doctrine 
independent of the parent Service's culture; and
    <bullet>  Centralized prioritization and management of cyber 
manpower and financial resources.

    There are, however, some potential downsides to standing up a cyber 
Service at this time.
    First, it might be preferable to have the current Services compete 
for the mission to spur innovation in what is a nascent warfare domain. 
Second, by deferring the decision, Cyber Command would have additional 
time to establish a strong institutional foundation upon which a future 
Service could be built to include cultivating a critical mass of 
skilled personnel and a cyber warfare culture. Third, the current 
approach identifies and pulls promising cyber warfare candidates from a 
very large personnel pool. Whether or not a new cyber Service could 
recruit sufficient talent from the existing Services, government 
agencies, and from the commercial sector is an open question.
    It is sometimes argued that instead of a separate Service, it would 
make more sense to stand up a unified functional combatant command 
similar to SOCOM. However, unlike SOCOM, whose functions span multiple 
warfare domains, Cyber Command focuses on only one: cyberspace. 
Therefore, while SOCOM requires the core competencies of all the 
Services to conduct operations on land, at sea, in the air, and in 
space, Cyber Command does ``not require any of the core competencies of 
the five Services; in fact, the cyber domain requires precisely the 
core competencies that none of the other branches possesses.'' \6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
                       toward a new space service
    While each Service has its own space professionals, most of the 
expertise currently resides within the Air Force. Space operations, 
however, are fundamentally different from air operations. The laws of 
astrodynamics govern the former whereas the laws of aerodynamics govern 
the latter. Space operations require specialized skill sets, training, 
equipment, operational concepts, and doctrine. Accordingly, it may be 
worth considering the establishment of an independent Service to 
organize, train, and equip space warfare operators.
    In 2001, the Commission to Assess United States National Security 
Space Management and Organization concluded that the disadvantages of 
creating a separate space Service outweighed the advantages. As they 
explained, ``There is not yet a critical mass of qualified personnel, 
budget, requirements, or missions sufficient to establish a new 
department.'' \7\ They did, however, call for a number of 
organizational reforms and left open the possibility that ``U.S. 
interests may require the creation of a military department of space at 
some future date.'' \8\ The Commission also identified matters of key 
importance that demanded urgent, senior-leader attention, including the 
matter that ``the U.S. must develop the means both to deter and to 
defend against hostile acts in and from space.'' \9\ It is instructive 
to reflect on what has--or perhaps more importantly, what has not-- 
happened over the past 14 years. Most of the urgent items identified by 
the Commission, for instance, remain partially or completely 
unaddressed.
---------------------------------------------------------------------------
    \7\ Report of the Commission to Assess United States National 
Security Space Management and Organization (Washington, DC: DoD, 2001), 
p. 80.
    \8\ Ibid.
    \9\ Ibid., pp. 9-10.
---------------------------------------------------------------------------
Mounting Threats
    Threats to United States space systems have increased 
significantly--most notably from China and to a lesser degree from 
Russia. The PLA first targeted American satellites with a High Energy 
Laser (HEL) in 2006. \10\ Building upon the successful SC-19 direct-
ascent ASAT test against a defunct weather satellite in low earth orbit 
(LEO) in January 2007, which created thousands of pieces of space 
debris, China demonstrated an ability to attack satellites in higher 
earth orbits in May 2013. \11\ China also conducted a non-debris-
creating test of an ASAT missile for use against LEO targets in July of 
2014. \12\ According to one source of emerging PLA space doctrine, 
China seeks to have fielded space weapons systems, including both land-
based and co-orbital ASATs, by 2025 that are ``capable of destroying or 
temporarily incapacitating all enemy space vehicles that fly in space 
above our sovereign territory.'' \13\
---------------------------------------------------------------------------
    \10\ David Axe, ``Chinese Laser vs. United States Sats?'' 
Defensetech, September 25, 2006, available at http://defensetech.org/
2006/09/25/chinese-laser-vs-u-s-sats/.
    \11\ Mike Gruss, ``Pentagon Says 2013 Chinese Launch May Have 
Tested Antisatellite Technology,'' Space News, May 14, 2015, available 
at http://spacenews.com/pentagon-says-2013-chinese-launch-may-have-
tested-antisatellitetechnology; and William Broad and David Sanger, 
``Flexing Muscle, China Destroys Satellite in Test,'' New York Times, 
January 19, 2007, p. 1.
    \12\ Office of the Secretary of Defense (OSD), Annual Report to 
Congress: Military and Security Developments Involving the People's 
Republic of China 2015 (Washington, DC: OSD, 2015), p. 35.
    \13\ Li Daguang, Space Warfare (Beijing: Military Science Press, 
2001), pp. 413-414; and Anthony Mastalir, ``The PRC Challenge to United 
States Space Assets,'' in Erickson and Goldstein, eds., Chinese 
Aerospace Power, pp. 74-75.
---------------------------------------------------------------------------
    The United States has taken some steps to improve its space 
situational awareness, as well as to develop space control 
capabilities. The National Defense Authorization Act for 2015, for 
example, authorized funds for the recently created Space Security and 
Defense Program, whose mission is ``the development of offensive space 
control and active defense strategies and capabilities.'' It appears, 
however, that the United States is lagging behind the threat in terms 
of fielding operational offensive and defensive space control 
capabilities.
Acquisition Difficulties and Weak Industrial Base
    Until recently, most of DOD's larger space system acquisitions 
experienced billions of dollars in cost increases and delayed 
schedules. The past decade is littered with failed or canceled programs 
(e.g., TSAT, space-based radar, and Future Imagery Architecture) or 
ones with staggering cost overruns. According to GAO, estimated space 
acquisition costs for fiscal years 2012-2017 grew by a staggering 
$22.6B or nearly 230 percent over the initial baseline. \14\ The 
Advanced Extremely High Frequency (AEHF) program, for example, more 
than doubled from an original total program cost of $6.3B to over $14B, 
and its first launch in 2010 was six years later than planned. The 
Space-Based Infrared System (SBIRS), which was initially estimated to 
cost $4.7B, is now expected to crest $19B, and its first launch in 2011 
was roughly nine years late. \15\
---------------------------------------------------------------------------
    \14\ Cristina Chaplain, ``Space Acquisitions--DoD is Overcoming 
Long-Standing Problems, but Faces Challenges to Ensuring its 
Investments are Optimized,'' GAO Testimony Before SASC Subcommittee on 
Strategic Forces, April 24, 2013, pp. 2-3.
    \15\ Ibid., p. 8.
---------------------------------------------------------------------------
    While financial and program turbulence has exacted a toll on the 
space industrial base across the board, the U.S. space launch sector is 
arguably the weakest. For over 15 years, the United States has been in 
the very unfortunate position of having to purchase RD-180 rocket 
motors designed and built in Russia for use on the Atlas III/V space 
launch vehicles owing to the lack of a domestic supplier. In May 2014, 
in the wake of declining United States-Russian relations over events in 
Ukraine, senior Russian officials threatened to ban the United States 
from using RD-180 for military launches. Congress is also opposed to 
continued reliance upon Russian engines. The United States Government 
is now scrambling to find domestic alternatives. Re-building the rocket 
motor industrial base, however, takes time and it will probably not be 
possible to field a new engine for several years.
    With the focused attention of a dedicated space Service, 
acquisitions may have been better managed and the industrial base would 
have had a more powerful bureaucratic advocate.
Looking Ahead
    The organizational reforms flowing from the recommendations of the 
Commission to Assess United States National Security Space Management 
and Organization have proven insufficient. The critical capability 
shortfalls that were identified 14 years ago have not been adequately 
addressed. The Commission questioned in 2001 ``whether, as in the past, 
a disabling attack against the country and its people--a `space Pearl 
Harbor'--will be the only event able to galvanize the nation and the 
cause the United States Government to act.'' \16\ It certainly appears 
that the Nation has become more-not less-vulnerable in space since 
2001. While threats have intensified and proliferated, space-related 
acquisitions have been slow and disordered, and the United States 
industrial base has grown weaker. Until recently, the development and 
fielding of space control capabilities was not afforded priority 
attention. Similarly, the recruitment, training, and retention of space 
warfare professionals remain mostly unchanged.
---------------------------------------------------------------------------
    \16\ Report of the Commission to Assess United States National 
Security Space Management and Organization (Washington, DC: DoD, 2001), 
p. 15.
---------------------------------------------------------------------------
    The potential benefits of standing up a new space Service would be:
    <bullet>  Better control over recruitment, training, promotions, 
and retention of skilled personnel;
    <bullet>  Creation of dedicated space career paths, fostering 
development of deep technical and operational expertise;
    <bullet>  Formulation of space operational concepts and doctrine 
unencumbered by legacy ``air power'' approaches;
    <bullet>  A separate funding stream that does not compete with 
other Air Force priorities; and
    <bullet>  Centralized prioritization and focused management of 
space systems acquisition.
    As an interim step in this direction, U.S. Space Command could be 
broken out from under Strategic Command and transformed into a unified 
combatant command with major force program (MFP) funding similar to 
SOCOM.
    It might also make sense to incorporate the Air Force's strategic 
missile forces into the new space Service. Over time, much like the 
PLA's Second Artillery Corps, the space Service's missile branch could 
expand into conventional long-range, precision-strike operations with 
ballistic missiles, boost-glide weapons, and sub-orbital weapons.
                      elevating socom to a service
    Almost seven years to the day after the tragic failure of Operation 
Eagle Claw/Operation Evening Light at a temporary airstrip in Iran, 
dubbed Desert One, SOCOM was created by an act of Congress, over the 
strenuous opposition of the Armed Services and the Joint Staff, to 
improve the capabilities, readiness, and command and control of special 
operations forces. The key impetus for the creation of SOCOM was the 
Holloway Commission report on the failed Desert One hostage-rescue 
mission, which among other things highlighted poor command and control, 
interoperability, and readiness within and among the Services' 
respective special operations units.
    SOCOM is responsible for organizing, training, equipping and 
deploying SOF to geographic combatant commanders. Furthermore, SOCOM is 
the lead combatant command for planning, synchronizing, and, as 
directed, executing global operations against terrorist networks in 
coordination with other combatant commanders. In essence, SOCOM is a 
hybrid organization: like the Services, it is a force provider to the 
geographic combatant commands; like other combatant commands, it is 
heavily involved in operational planning, force allocation, and, in 
some cases, execution of military operations. Reflecting SOCOM's unique 
hybrid status, it is the only combatant command with the authority to 
submit its own program objective memorandum to the Secretary of Defense 
and to have its own acquisition executive and funding line, referred to 
as Major Force Program-11 (MFP-11), for conducting R&D and procuring 
materials, equipment, supplies, and services unique to special 
operations requirements.
    The primary reason to elevate SOCOM to a full-fledged Service would 
be to increase the command's control over its personnel. Currently, the 
individual Services are ultimately responsible for managing the career 
paths of special operators, which is a source of considerable 
institutional tension. As a Service, SOCOM would have more flexibility 
in managing the career paths of its highly skilled operators. Second, 
while SOCOM takes full advantage of MFP-11's flexibility, it is 
nevertheless constrained in some respects by ossified Service 
acquisition processes. As a Service, with increased funding and a more 
robust acquisition workforce, SOCOM could potentially develop and field 
a wider range of SOF-unique and SOF-tailored equipment and weapons 
systems more quickly.
                    increased service specialization
    One of the many unintended consequences of Goldwater-Nichols has 
been an acceptance of what is often referred to as ``Little League 
rules,'' meaning that every Service is entitled to a role in planning 
and conducting nearly all military operations across the spectrum of 
conflict regardless of whether or not it makes the most sense 
operationally or is the best use of available resources. Every Service 
``gets to play'' to justify its respective program of record and defend 
its budget allocation. As a result, Service budget allocations have 
remained remarkably fixed over the past three decades, which has 
stifled innovation. A corollary is that the Services have over-invested 
in capabilities for conducting operations in medium-threat environments 
with the implicit reasoning that such capabilities can swing to the 
low-end or high-end. The problem, however, is that such middle-of-the-
road capabilities are often inefficient in terms of cost with respect 
to lower-end contingencies and inadequate operationally for higher-end 
ones.
    What might a more ``specialized'' joint force look like? The Marine 
Corps, for example, could focus on being the Nation's crisis response 
force in readiness for contingencies in low-to-medium threat 
environments around the globe. In exchange, it would give up on high-
risk, high-cost notions of forcible entry operations in high-end A2/AD 
environments. It would also eschew protracted counter-insurgency and 
stability operations. The Army could focus on developing the cultural, 
language, and specialized skill sets to be the Nation's lead for 
counter-insurgency, stability operations, and building partner 
capacity. It could also develop and field mobile, cross-domain missile 
forces (e.g., surface-to-air missiles, anti-ship missiles, long-range 
ASW weapons, and surface-to-surface missiles) to both enable and 
conduct power projection operations in A2/AD environments. The Air 
Force and the Navy might shift more strongly toward a ``high-low'' 
force mix with the high focused on conventional power projection in A2/
AD environments and the low focused on persistent ISR-strike presence 
in more benign environments. For the Air Force, this might entail 
curtailing investment in medium-threat environment capabilities such as 
short-range, manned fighters in favor of extended-range MQ-9 Reaper 
UAVs, RQ-4 Global Hawk High Altitude Long Endurance (HALE) ISR UAVs, 
and commercial derivative aircraft for the low end of the mix and LRS-
B, penetrating HALE ISR UAVs, and a land-based unmanned combat air 
systems (UCAS) for the high end.
    For the Navy, this might mean increased investment in Joint High 
Speed Vessels/Expeditionary Fast Transports, Afloat Forward Staging 
Bases/Expeditionary Mobile Bases, Littoral Combat Ships, and frigates 
for the low end and stealthy carrier-based UCAS, additional attack 
submarines, undersea payloads, and unmanned undersea vehicles (UUVs) 
for the high.
                         competitive jointness
    Intra-and inter-Service competition should be strongly encouraged, 
with the Secretary of Defense and his key advisors as referees. Inter-
Service crowding into each other's battlespace in particular, if 
managed properly, could keep the Services on their toes, foster 
innovation, and lead to a more robust future force. A competitive 
approach to joint operations would allow alternative concepts to vie 
for incorporation into regional contingency plans and secure DoD 
investment resources.
    Encouraging competition within and among the Services does not mean 
that the Services should adopt a go-it-alone approach to warfighting. 
The intent of what might be called competitive jointness is to exploit 
the expertise inherent in divergent approaches and expand the range of 
warfighting options presented to joint force commanders. Each branch or 
Service or would be encouraged to integrate the capabilities of other 
branches or Services, respectively, to enhance its own capabilities and 
achieve theater objectives.
    To enable competitive jointness, some of the Service monopolies on 
specific missions protected as ``primary functions'' in Secretary 
Forrestal's ``Functions of the Armed Forces and the Joint Staff'' 
memorandum from 1948 will need to be opened to competition, and many of 
the ``collateral functions'' for each Service will need to be elevated 
in importance.
    The Army's primary function of defeating land forces, for example, 
should be open to the Navy and the Air Force, and its collateral 
function ``to interdict enemy sea and air power and communications 
through operations on or from land'' should become a new area of 
conceptual and capability development.
    Similarly, the Navy's primary functions ``to seek out and destroy 
enemy naval forces and to suppress enemy sea commerce, to gain and 
maintain general sea control, and to control vital sea areas to protect 
sea line of communications'' should be open to competition by the Air 
Force and Army. Meanwhile, the Navy's collateral function to 
``interdict enemy land and air power and communications through 
operations at sea'' should be a focus of operational concept 
development along with the fielding of critical enabling capabilities.
    Finally, the primary functions of the Air Force for ``defense of 
the United States against air attack,'' as well as to ``gain and 
maintain air supremacy'' and ``defeat enemy air forces,'' should be 
open to competition by the Navy and the Army. All three of the Air 
Force's assigned collateral functions--interdicting enemy sea power, 
conducting anti-submarine warfare and shipping protection, and 
conducting aerial minelaying operations--should be growth areas for the 
future.
                               conclusion
    The emergence of new capabilities and the evolving threat landscape 
demand a fundamental re-look at the Key West Agreement as promulgated 
by Secretary of Defense Forrestal in April 1948. It may well be time to 
establish new independent Services for space and cyber operations, as 
well as to elevate SOCOM to a full-fledged Service. Given flat or 
declining resources for defense and threat trends shaping the future 
security environment, being a ``jack of all trades, but master of 
none'' appears to be an increasingly problematic proposition. 
Accordingly, increased Service specialization in selected areas should 
be given serious consideration. Finally, intra-and inter-Service 
competition should be strongly encouraged as a means of fostering 
innovation. To do so, many of the Service mission monopolies that have 
hardened since 1948 will need to be broken and many of the collateral 
missions that have been ignored or under-invested in to date will need 
to be elevated in importance.

    About the Center for Strategic and Budgetary Assessments
    The Center for Strategic and Budgetary Assessments (CSBA) is an 
independent, nonpartisan policy research institute established to 
promote innovative thinking and debate about national security strategy 
and investment options. CSBA's analysis focuses on key questions 
related to existing and emerging threats to U.S. national security, and 
its goal is to enable policy makers to make in formed decisions on 
matters of strategy, security policy, and resource.

    Chairman McCain. Well, thank the witnesses. You know, just 
a comment, we with Goldwater-Nichols encouraged jointness as 
one of the major factors of it, yet we want competition. We 
want them to be joint, and we want them to be competitive. I am 
still not sure how we get our arms wrapped around that one.
    It seems to me, if I recall my history, and I think it is 
right, that in World War II we had basically two commands. We 
had a European command under General Eisenhower, Supreme Allied 
Commander Europe [SACEUR], and we had a Pacific Command under 
Admiral Chester W. Nimitz, eight million people under arms. Now 
we have a proliferation of commands.
    It seems to me that every time I turn around there is a new 
crisis, so the answer is create a new command. Problems in 
Africa, let us have an Africa Command [AFRICOM]. Let us have a 
Northern Command [NORTHCOM] and a Southern Command [SOUTHCOM] 
with an arbitrary line between Guatemala and Mexico. Every one 
of these commands creates large staffs, requires large support, 
requires contractors. We have watched the number, especially 
Dr. O'Hanlon, we have watched the number of brigade combat 
teams go down while we watch the support contractors staffs go 
dramatically up.
    So here we are before the committee and saying, well, we 
need a cyber command. I do not disagree. I do not disagree with 
that, and SOCOM we are all proud of. SOCOM crosses all of those 
geographic lines. So it seems to me or I am not convinced that 
this increase in commands that we have experienced particularly 
in an almost accelerated process and now calls for another 
command, which I am not opposed to. It seems to me that at some 
point, should we not look at the whole structures as they are, 
particularly since the greatest threats that we face in the 
opinion of most crosses boundary lines, crosses oceans, and 
crosses all aspects of geography, whereas our commands were set 
up for basically different geographical parts of the world.
    And so, again, I am not against a cyber command. In fact, I 
think we would probably agree to it. But should we not look at 
the other end of the spectrum here? Do we need to just have a 
proliferation of commands and, by the way, a commensurate 
increase in admirals and generals? So maybe I could begin with 
you, Mr. Martinage.
    Mr. Martinage. I think you raise a really good point. I 
think, you know, when you look at cyberspace and special 
operations commands, I mean, there is already a significant 
headquarters and overhead associated with those. The question 
is if you elevate them to a service, give them more 
independence in terms of their budget authority, give them more 
control over their resources and managing their personnel, do 
you--is that worth the investment.
    But I would separate that from the geographic combatant 
commands, which I agree with you have become too large, and 
have become much more like mini State Departments than actual 
combat, you know, preparing organizations. So, you know, a lot 
that could be done--you know, we have these combatant commands, 
but then when we have a contingency we set up a joint task 
force, which I think reflects a lot of this.
    So anyway, I think--I agree with you. I think that we could 
pare back the number of or size of our geographic combatant 
commands, but I would separate that from the question of do we 
want to think about elevating SOCOM or creating a space or 
cyber service, which I think is a different question.
    Chairman McCain. Doctor? Dr. O'Hanlon?
    Dr. O'Hanlon. Thank you, Senator. I would just make the 
brief point that I agree with the thrust of your argument. The 
nice thing is we now sort of have a geographic command for 
every continent, so there probably is not a whole further to 
go, and I hope we do not go any further. But on the functional 
commands----
    Chairman McCain. We have two for this----
    Dr. O'Hanlon. That is a good point, and one could make the 
argument, especially you put it very well that Guatemala, 
Mexico, it is sort of an unnatural division. Obviously Northern 
Command is thinking about the defense of the homeland 
fundamentally. Southern Command is thinking about Latino allies 
fundamentally, but perhaps that is something that could be 
juxtaposed.
    Cyber, however, strikes me as different enough, and hard 
enough, and technical enough that I am sympathetic to the idea 
of according it its own command. I do not know about a separate 
service. I do not know about separate services for space and 
special operations, but I think having a cyber command 
recognizes the technical challenge of the operations associated 
with that and the importance of cyber to everything we do. So 
that is probably the one example where I would be willing to go 
ahead.
    Chairman McCain. You would--might agree that jointness does 
not foster inter-service competition?
    Dr. O'Hanlon. You know, Senator McCain, as a person who is 
not in the military, I have admired the balance between 
competition and cooperation. I generally think it is pretty 
good today. I take your point that there is a tension, and one 
could easily see it skewed too far in one direction or other. 
Historically, I think it has been at times skewed in one 
direction. I think Strategic Air Command in the 1950s had too 
much influence, and too big an idea of what it could accomplish 
with nuclear weapons, so there have been mistakes in the past. 
But today I think it is a pretty good balance between 
competition and collaboration.
    Chairman McCain. Mr. McGrath?
    Mr. McGrath. Very quickly on the cyber point. Cyber is so 
misunderstood by me, by perhaps people in the room, as to defy 
anything I think. There are strategic cyber activities that are 
held, I believe, at the level of the President. There are cyber 
activities that could be easily carried out at the individual 
unit ship board level.
    Who controls those, who controls the ROE, all of those 
issues are very complicated, and I would as a former naval 
officer be loath to not have people on my ship who understood, 
who were wearing uniforms subject to my command, who understood 
what the impact of those cyber activities would be, or that we 
would just subcontract them all to a building somewhere in 
Maryland to come in from above.
    With respect to jointness, I have written quite a bit. I 
think we are--jointness works at the level of war fighting. It 
works much less at the level of strategy and the making of 
strategy.
    Chairman McCain. General?
    General Deptula. Yes, sir, very quickly. Great point on the 
challenge of balancing service perspectives versus joint just 
very quickly because many people--I know many here do, but 
external from this body some do not. That is the fact that to 
be joint requires that separateness of the services. It takes 
20 to 25 years to master the skills of learning how to be a 
commander of a surface action group, or a division, or an air 
expeditionary force, or a Marine expeditionary force.
    The beauty of the joint construct is that the services do 
not fight. The services organize, train, and equip, and provide 
these professionals to a joint task force commander who can 
then organize relative to the contingency that is facing him or 
her. So they can select from this menu of capabilities that 
require the separateness of the services, but then to integrate 
them to meet a particular contingency. So that balance is 
there.
    Now, second point. In the context of----
    Chairman McCain. You have got to--you have got to 
accelerate a little bit. I am way over time.
    General Deptula. Okay, sorry, sir. You are right on re-
exploring the validity of the regional combatant commands that 
were established after World War II, and then we tack them on 
until we have got every continent. It ought to be part of the 
review of the 21st Century Roles and Missions Commission.
    Cyber command versus service, probably needs to be a 
command first because, as Bryan mentioned, every one of the 
services has and is affected by the cyber domain.
    Chairman McCain. Thank you, General. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman, and 
thank you, gentlemen, for your excellent testimony. The 
chairman has raised, I think, a fundamental question here about 
the way we have put together the military with both overlapping 
missions and responsibilities. Some argue it is wasteful, 
redundant. Others argue it spurs the kind of competition and 
complementarity that is--makes us successful.
    And you can attack this in very different ways to look at 
it. One is the structural. Do we need these commands? The other 
is missions. I would just--I think it to be useful to the 
expertise here starting with the general. Are there sort of 
missions that are now being conducted by several services that 
are redundant, and on the other side of the ledger, missions 
that are more effectively carried out because they have several 
services engaged? That might help us, I think, sort of begin 
think through some of these.
    So, General, if you have any thoughts.
    General Deptula. Yes, sir. Obviously there is a lot of 
redundancy across all of the services, and this is one of the 
areas that we have got to revisit. If you take a look at the 
current 5100.01, there are a listed 28 common military 
department functions and 24 common military service functions. 
Obviously we do not have time to go into all of those here 
today.
    A couple of the ones that stand out and deserve immediate 
attention is the whole issue of intelligence surveillance and 
reconnaissance, the use of remotely piloted aircraft. We have 
one service that is buying and developing essentially the 
carbon copy of the same kind of drone that is operated by 
another service. Why is that?
    We have different organizational means of actually 
employing them. Some believe that the use ought to be up to the 
Joint Task Force commanders. Others believe that they should be 
inherent to the organic ownership of particular units. That is 
an issue that needs to be addressed.
    The capability in the context of the mission area of deep 
attack, long-range strike is one that is maintained by all the 
services. A roles and missions review would take a good look at 
that. I mean, why do we have one service that is developing 
deep attack capability that is already resident in another?
    And the other area is close air support. We have got 
multiple services with multiple systems that can all conduct 
close air support, yet we tend to focus on, and this is not a 
surprise to this committee, a particular aircraft and a 
particular service without looking across the different service 
stovepipes to take a holistic look at what we have available 
for close air support.
    Senator Reed. Thank you, sir. Mr. McGrath?
    Mr. McGrath. Senator Reed, I would like to speak in favor 
of redundancy and overlap. When the chiefs got together at Key 
West, it was three months before the Berlin air lift. They had 
no concept of what was coming. Secretary Forrestal generally 
considered the product of Key West to be sub-optimal, that 
there was still far less efficiency gained and swim lanes 
designated than he wanted.
    I think we are entering into a new period of great power 
dynamics, that overlap and inefficiency I think served us well 
through the Cold War. It does not mean it was the only thing 
that could have worked, but it was something that did work. So, 
if we look at a roles and missions review right now solely 
through the lens of efficiency and more efficient allocation of 
resources, I think we miss the bigger picture is if we are 
going to do it, it needs to be focused on preparing us to be 
ready for great power and competition.
    Senator Reed. Thank you. Dr. O'Hanlon and then Mr. 
Martinage.
    Dr. O'Hanlon. Senator Reed, thank you. Just a very brief 
point about the Marines and the Army. To me, I have seen that 
they have actually done well in having a healthy competition in 
the wars in Iraq and Afghanistan. Of course, the Marines do not 
like to be seen, nor should they been seen, as a second army, 
but they did have certain sectors, as we all know, in both Iraq 
and Afghanistan, and they sometimes employed somewhat different 
tactics, and perhaps they were a little bit ahead of much of 
the Army, not General Petraeus, not General H. R. McMaster, but 
much of the Army on the proper use of counterinsurgency 
tactics. I think there was a healthy competition and a back and 
forth getting ideas from each other.
    There was a reputable book done by a former Washington Post 
reporter that thought that Marines went too far in Helmand 
Province in Afghanistan and created their own Marinastan in 
Helmand, and insisted only having their own TacAir support for 
their own forces. I think there was some validity to that 
concern, but General Stanley McChrystal, General Petraeus were 
in positions to overrule that if they needed to.
    And so, I think generally speaking, the distinctiveness, 
the competition was probably okay, and we probably got more 
benefit from it than harm.
    Senator Reed. I would add in reflection, I think the Army 
learned a great deal from the Marine Corps because it became an 
expeditionary force essentially, and much more closer to the 
Marine Corps model than it was going into these operations. So 
it has been--that is an example of how competition, if you 
will, helps everybody in a sense. But, Mr. Martinage, quickly.
    Mr. Martinage. Again, I think it is a balancing act between 
specialization on one hand and then jointness and overlap on 
the other. I just come down, I think, in some cases with Bryan 
in terms of that overlap is good as long as you have 
competition in that area.
    So, for example, anti-surface warfare, the Air Force has 
gotten out of that business over time in terms of anti- Navy 
capabilities. But you are feeling this long-range strike bomber 
[LRSB], very stealthy, capable aircraft armed with anti-ship 
missiles. It could be a very effective anti-surface warfare 
capability for the Nation, possibly surpassing what we could do 
with carrier strike groups, which could provide an impetus for 
the Navy to think about how they are going to go after that 
problem differently. So that is just one example of many.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman. Well, first of 
all, General Deptula, I am very proud of your family and the 
fact that your daddy is here. I just am very pleased, and also 
with your career, the things that you have done, the things you 
have accomplished. I am not surprised in that you got your 
training at Vance Air Force Base. So anyway, I appreciate your 
being here.
    And, Dr. O'Hanlon, it was kind of interesting. You brought 
up a couple of things. First of all, are you aware that in 1994 
I was in the House? I was on the House Armed Services 
Committee. Sitting next to me was John McHugh, and we had 
testimony--this is 1994--by experts like you experts, except 
they were not quite to your level. They said in 10 years we 
would no longer need ground troops. Do you remember that 
discussion?
    And I bring that up because whatever we say now goes back 
to what General Bob Gates said. You know, whatever we do and 
decide to do about the future of threats and preparing right 
now--we were 100 percent, we were wrong every time. Of course, 
that is one of the reasons that I am very happy that we have 
had a series of hearings over the last three, four weeks that I 
have really benefitted a lot from.
    We have had, of course, Secretary Gates, and then we had 
one on the 22nd of October with some--four professors coming 
from their perspective. General Keith Alexander was here with 
some of the academic witnesses. I think--the one thing that 
they all had in common was that we are really not spending 
enough on defense. We are not getting enough resources in 
defense. We have a different world now than we have had before.
    And we are now in a position where we have cut the 
military. I think you mentioned, Mr. McGrath, the same thing 
that I think General Gates, and he said in 1961 we had 51 
percent of our resources went to defending America. Now we are 
down to 15 percent.
    Now, I would ask each one of you, do you think that that is 
a problem. We have adopted a policy now that if we try to 
correct the problem that we are having that came with 
sequestration, that we have a policy now that we cannot 
increase the spending in defense unless we have an equal amount 
of increase in social programs. I would like to have, starting 
with you, General, your opinion of that policy.
    General Deptula. Thank you, Senator, for the opportunity to 
comment on that. First order question that still little 
discussion has been given to. Everybody has an opinion on what 
we should do with defense spending relative to social spending. 
But I suggest that we go back to one of our foundational 
documents, which can provide some guidance, the Preamble of the 
Constitution, which we formed this government to ``provide for 
the common defense, promote the general welfare.'' It does not 
say provide for the general welfare and promote the common 
defense.
    So if you take a look at what we have done in terms of 
sequestration, we have hit defense essentially at an excessive 
rate relative to the percentage of the budget that it makes up. 
So you are exactly right, we need to provide the resources to 
meet the national security strategy. If we want to be the 
world's sole super power and to be able to engage on all the 
continents around the world to shape peace and stability, and 
then fight and maintain multiple contingencies simultaneously, 
we need to pay for it. We either do that or we change the 
strategy.
    Senator Inhofe. Okay. Do the rest of you kind of agree with 
that generally? Yes, because we are short of time.
    Dr. O'Hanlon. Senator, could I just make one very brief----
    Senator Inhofe. Of course.
    Dr. O'Hanlon. I would like to see domestic discretionary 
programs that are relevant to long-term national power 
supported, too. So I am most concerned about the overall 
downward pressure on all discretionary programs and the 
relative lenient treatment for entitlements and for tax 
considerations. I would rather see a much more integrated 
budget deal because those domestic programs on infrastructure, 
science, education I see as relevant to long-term national 
power.
    Senator Inhofe. All right.
    Mr. Martinage. Two seconds. I would just like to say, I 
mean, I think we need a larger defense budget, but investing in 
more of the same I think is not the solution. We face a 
different array of challenges, and doing more of the same is 
not going to work.
    Senator Inhofe. Okay. I am almost out of time here, and I 
did not want to spend that much time on that because one of the 
problems that we are having now is one that everybody 
recognizes, all the other panelists. It is not exactly in the 
purview of what this is supposed to be about, but that is in 
the difficulty we have in making cuts in headquarters.
    You know, we have been trying to do this for a long period 
of time. I have an analogy that I use, all bureaucracies are 
the same; they all want to grow. In the case of the FAA 
[Federal Aviation Administration] back in 2000, they had a 
budget of $9.9 billion. Today it is $16.5 billion, and they 
have fewer licensed pilots out there. It is just the nature of 
the bureaucracy.
    And I think we are trying right now to address that. I know 
Secretary Gates and Secretary Chuck Hagel attempted to do it, 
and we in our defense authorization bill have actually--
headquarters budget and personnel by cutting it $435 million in 
personnel spending. We are making an effort to do that, and we 
have not been successful in doing it.
    And since my time has expired, I would like to have each 
one of your for the record give your recommendations on what we 
can do to keep the--that level from growing regardless of what, 
you know, what the situation is. You said it very well, 
General, when you said the size of the Pentagon that won World 
War II was far smaller than the present enterprise. For the 
record, all right? Thank you.
    General Deptula. Yes, sir. Very briefly, this needs to be 
one of the objectives, number one, of a roles and missions 
review. I went back and, I mean, I mentioned earlier we have 28 
common military department functions, 24 service common service 
functions. That does not even touch the Office of the Secretary 
of Defense [OSD], which has exploded as well as the Joint 
staff.
    This is a, what I call, as you were talking, the law of 
large organizations, and it will take leadership to put a stop 
to it. But we need to reduce, not continue to grow, and quite 
frankly you can do things better if you have smaller staff. So 
set an arbitrary limit and stick to it. You can start with 
cutting OSD by 25 percent.
    Senator Inhofe. Yes, and just the rest can answer for the 
record. Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman. We had a very 
interesting hearing yesterday in the Budget Committee talking 
about some of these larger issues. I think it is important to 
put into perspective the discussion about defense spending and 
domestic discretionary spending. They represent just about 25 
percent of the total Federal budget. We are fighting over a 
small piece and not discussing the major piece, which is 
entitlement spending, interest on the national debt, and tax 
expenditures which are now a trillion dollars a year equal to 
the entire discretionary budget.
    So there is a lot of areas to discuss. I do not see this as 
a fight between the National Park Service and the Defense 
Department. It is a much larger discussion in terms of the 
context of this--of this issue.
    General Deptula, first I want to say how impressed I have 
been by your testimony. The person who allowed you to retire 
should be hunted down and punished. Delighted to have you with 
us this morning. Give me a big picture in a minute, upside of 
reorganization. We are here today talking about reorganization. 
What do we gain? Is it financial? Is it effectiveness? As Chief 
Justice Warren Burger used to say, why are we here?
    General Deptula. Sir, depending on how it goes, it could be 
all of those. It could be increased capability with fewer 
resources. But in order to get that end state, we need to think 
about different ways and how technology has enabled us to go 
there. You know, folks like to single out the F-35 and say, 
well, we can use fourth generation aircraft instead, but what 
they are doing is they are thinking about the F-35 as a 
replacement aircraft, older aircraft.
    Part of the problem with weapons systems like F-35, F-22, 
and the next generation bomber is they are not Fs or Bs. They 
are F-B-E-A-R-C-E-W-A-W-C-S 22s and 35s. They are flying sensor 
shooters that with the proper context you could put together 
and match them and connect them with land forces, sea forces. A 
wingman to an F-35 should be an Aegis cruiser. Those kinds of 
concepts will allow us to become much, much more effective with 
fewer overhead in structure trying to use an employ forces the 
old way.
    Senator King. One of the concepts we have been talking 
about here is that the modernization of these large weapon 
systems--the new Ohio-class, the F-35, the strike bomber--we 
need to be thinking about modularization and modernization as 
built into the concept because we are building a 35- or 40-year 
asset, and it is obsolete the day it is built. We have got to 
be thinking about how it can be upgradable, it seems to me.
    Specific question. Dr. O'Hanlon, you said something very 
interesting, and perhaps you could give me this on the record. 
The relative cost of a carrier versus a land base, do you have 
anything on that specifically? We know what a carrier costs. It 
is about $12 billion. What about a base somewhere in the 
Persian Gulf?
    Dr. O'Hanlon. Well, bases typically cost in the range of $2 
billion if they have to be very well fortified and protected. 
So that would be the investment cost, a land base, and that is 
going to include underground facilities for fuel, weapons, all 
sorts of redundancies so that you can survive hits. Of course, 
there are going to be costs that a land base is going to have 
incur thereafter that are going to be quite high----
    Senator King. But I think that is--but I think that is an 
interesting figure because there are areas of the world where 
we know we are going to have to station a carrier. Maybe it 
would be most cost-effective to station a station.
    Another question, intelligence. We spend about $70 billion 
on intelligence, $50 on the civilian side, $20 on the military 
side. Those are rough figures, unclassified. That is a lot of 
money. Is this an area where we could--where we could find some 
efficiencies? I just--I cannot help but believe that there is 
overlap having these multiple intelligence agencies essentially 
all watching what Assad is doing or what Putin is doing. Any 
thoughts on that, General?
    General Deptula. Yes, sir. You are exactly correct.
    Senator King. Could the record show that?
    [Laughter.]
    General Deptula. Sixteen, 17 intelligence organizations. I 
used to go to the Executive Committee [EXCOM] on a, you know, 
monthly basis that the Director of National Intelligence [DNI] 
held, and I would sit around the table. I would listen to 
everybody, and then everyone would go back home to their own 
organizations and do their own thing again. It is an area that 
is worthy of further exploration to get to the point how do we 
integrate and avoid duplication and overlap.
    Senator King. Thank you. Thank you very much, gentlemen, 
for your testimony.
    Chairman McCain. Let the record show that the opinion of 
the senator from Maine for the first time in the history of 
this committee was exactly right.
    [Laughter.]
    Chairman McCain. I am also reminded to correct the record 
concerning the Pacific in World War II. It was divided between 
Admiral Nimitz and General Douglas MacArthur. A West Point 
graduate was offended by my omission there, and I deeply 
apologize.
    [Laughter.]
    Chairman McCain. I am not sure who is next.
    Senator Ernst. Thank you, Mr. Chair. Thank you, gentlemen, 
for joining us here today. I appreciate your testimony very 
much.
    I would like to kind of redirect back to our air powers for 
a little bit of discussion there. As many of you know, I and 
many of my colleagues have really been focused very much on the 
Air Force effort to divest the A-10. Many of us are strongly 
opposed to that. Senator Ayotte has been a wonderful leader in 
this effort, and I have known many warriors on the front lines 
that have had the benefit of close air support from the A-10. 
It is very highly regarded amongst members of our armed forces.
    So I would just love to get your feelings on whether the A-
10 should be divested, and certainly, General, let us start 
with you.
    General Deptula. Well, thanks very much for the 
opportunity. The first point that I would like to make, and by 
the way, this gets to the heart of the subject of roles and 
functions, roles and missions. The close air support is a 
mission. It is not an airplane. As you have been--I do not know 
if you have been involved in close combat, but if you are being 
shot at by an adversary and all of a sudden that adversary gets 
terminated and you are no longer shot at, do you really care 
where the weapon came from that terminated the adversary? I do 
not think so.
    Senator Ernst. General, do we have a platform if we should 
get rid of the A-10 right now as suggested by some? Do we have 
a platform that would perform that mission?
    General Deptula. Yes. More than 70 percent of the close air 
support missions that have occurred in Afghanistan were by 
aircraft other than the A-10. Now, that is not to say it is not 
a magnificent platform, which gets to my other point, and that 
is why we need to look across service boundaries. In the United 
States Army, as you well know, we have got Apache helicopters. 
The A-10 performs a close air support mission much better than 
the Apache helicopter or the helicopters--attack helicopters in 
the Marine Corps.
    So why do we not open the spectrum before we look at 
terminating one particular aircraft in one particular service 
stovepipe and look at the entire mission set, and look at what 
is the best way to meet our fiscal challenges while at the same 
time optimizing our military capability?
    Senator Ernst. That is a great discussion. How about you, 
Mr. McGrath?
    Mr. McGrath. I realize the world is not this simple, but we 
could trade, trade air defense artillery from the Army to the 
Air Force, trade the A-10 from the Air Force to the Army. Many 
of our allies around the world have air defense artillery in 
their air force. But I believe the plane, the A-10, and how it 
is revered by those who live under its protection, we should be 
very, very cautious about getting rid of that platform. Perhaps 
it should just be switched over to the Army.
    Senator Ernst. Well, that was going to be my next question 
actually is I know the Army does not want to absorb the A-10, 
but that is a thought that is out there as well.
    Mr. McGrath. I think they would absorb it if you gave them 
the money.
    Senator Ernst. That is it. That is the key. That is the big 
issue. Dr. O'Hanlon?
    Dr. O'Hanlon. Senator, I, too, think the A-10 is a pretty 
good platform, and I would like to see a more integrated cost 
study. We have this figure that has been used by the Pentagon 
that there is $4 billion in O&M savings if you retire the A-10. 
I think that is based on very specific assumptions, and, of 
course, it is not accounting for the fact that you are going to 
have to buy F-35s in order to replace the A-10s if you retire 
them.
    I would buy fewer F-35s and/or attack helicopters in order 
to be able to keep the A-10, and then it becomes a different 
cost calculation. So at a minimum we should see that 
calculation done with a broader set of assumptions because I 
think the Pentagon is giving a very specific way to do the 
calculation, which assumes the F-35 Program and the Attack 
Helicopter Programs are all givens and untouchable, and only 
then calculates the cost addition from the A10.
    Senator Ernst. Okay, thank you. Mr. Martinage?
    Mr. Martinage. I tend to agree with my colleagues here on 
the panel, and I would say I think it is really important to 
look at it as a mission and, you know, have the AC-130. You 
have attack helicopters, you have the A-10, you have TacAir, 
you have bombers that can all perform the mission to varying 
degrees. I think the A-10 is probably one of the best in the 
bunch, but I think that we need to look at the cost 
implications.
    And I think this gets to the high/low mix. You know, for 
the Air Force, they probably need some dedicated low 
capabilities for doing ISR close air support, strike in low to 
medium threat environments, and they need a different set of 
capabilities for high-end anti-access area denial [A2AD] 
environments. Quite frankly, the F35 does not fit well into 
either of those.
    Senator Ernst. Okay. General, I would like to shift back to 
you since you brought up the Apache attack helicopter. There is 
an effort to move the Apaches out of the National Guard. I, of 
course, believe that the National Guard needs to retain some of 
the combat capabilities. We need those pilots to retain hours 
or keep their hours up. What are your thoughts on moving that 
strictly to the active duty component?
    General Deptula. I think the Guard and the Reserve forces 
in the United States of America are oftentimes overlooked as a 
key element of our entire defense architecture. I am not 
specifically familiar with the details of that argument, and so 
I would leave that to the experts in the Army, Guard, and 
Reserve as well as active duty. However, I would be a bit 
suspicious about shifting a particular capability set all into 
one of the components or the other.
    Senator Ernst. Thank you. I am suspicious as well. My time 
is up, gentlemen. Thank you very much. Thank you, Mr. Chair.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman, and I thank the 
panel. We note that as we focus on what should be the roles and 
missions of the armed services that I note that I think all of 
the panelists said that--indicated that this is not the armed 
services that we would have if we were creating this body 
because our military is a product of history.
    So, General Deptula, thank you very much for your service. 
I know you also had a stint in the--in the Pacific, so mahalo 
for that. I note in your testimony that the biggest challenge 
our defense establishment faces is one of institutional 
inertia. If there is institutional inertia, how can we have a 
serious discussion that leads to changes to the military if 
there is inertia, as you indicated? How would you go about 
pushing through this inertia and creating an environment where 
appropriate changes can happen?
    General Deptula. Aloha, and thank you for the question, 
because it is a very, very important one. The first thing that 
we need to do, in my opinion, in terms of getting at this 
institutional inertia is, number one, recognizing it and 
talking about it, which gets to my first recommendation that I 
made earlier, and that is we need to have a roles and missions 
commission for the 21st century to deal directly at these 
issues because, once again, as Senator Inhofe, and the 
chairman, and Mr. Reed have mentioned, we are faced with this 
law of large institutions that tends to dumb everything down to 
a lowest common denominator, and adds lots of time and effort 
into any decision, which also reduces the proclivity for risk 
taking.
    And it has gotten to be such a risk averse environment 
across many, many subject areas in the Department of Defense, 
it is amazing that we make any progress.
    Senator Hirono. Do the other panelists agree that 
institutional inertia is a huge factor in moving us forward? 
Yes?
    Mr. McGrath. Senator, I think another word for 
``institutional inertia'' is ``jointness.'' Jointness, as I 
have said earlier, has provided a lot of really good things. 
Our ability to summon a variety of fires from a variety of 
services and platforms at the time and place of our choosing is 
the envy of the world.
    But when you enter a process of the making of strategy with 
one of your first pillars being how the joint force would be 
used or how the joint force would be--would contribute, rather 
than thinking about what is it you are trying to do and which 
elements of this joint force are most important. Until we get 
to a point where jointness is not the number one attribute that 
we look for from our armed services, until we get to that point 
we will have this sclerosis and this institutional inertia.
    Senator Hirono. I think you mentioned that jointness works 
when we are actually in a war situation, and it does not work 
so well when we are planning for a 21st century military.
    Mr. McGrath. I think it is less successful.
    Senator Hirono. Anyone else want to weigh in, especially on 
the subject of risk averseness in our military, and that was 
testified to in one of our earlier panels. Dr. Thomas Mahnken 
said that we are--the U.S. has grown unused to having to take 
risks and bear costs.
    Dr. O'Hanlon. Senator, I would--I would personally say that 
when we get to issues like high-level modernization debates, I 
think we have a system that works pretty well because we cannot 
expect the system to make the decisions for us. All we can 
expect is the system will elevate the important issues to a 
place where the Armed Services Committee, the Pentagon, the 
Nation as a whole focuses in on them and the contending 
arguments.
    What I am most concerned about is I think where Senator 
McCain and Senator Inhofe were speaking earlier, the harder to 
analyze growth in staff growth and bureaucracy, to me these the 
parts of the institution and the system that are the most 
challenging to comprehend and to attack. So, I am less troubled 
by the high-level roles and missions debates on some of the 
weapons and more concerned about the growth of the bureaucracy.
    Senator Hirono. Well, I think in connection with that then, 
as we focus on research and development efforts, and, you know, 
a large part of that is in the service of combatant commanders. 
Would you say that the combatant commanders should have much 
more input into what kind of technologies and resources that 
they need as opposed to much more of a centralized decision 
making at the Pentagon level? Anyone?
    Mr. Martinage. I would say yes. I mean, I think one of the 
big ways to get out of the institutional inertia problem is to 
encourage inter-service competition for key missions, and 
exactly what those missions are and the priorities of those 
missions could very much come from the geographical combatant 
commanders.
    But to have real inter-service competition, you have to be 
able to affect budget share. If you cannot get out of the one-
third, one-third, one-third rule, there is no incentive to take 
risks to try to something new. So, I mean, I think that is a 
big part of it.
    Senator Hirono. Thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony. I think these are really 
important hearings. I want to commend the chairman for 
undertaking this important look at the future, what we need to 
do.
    Dr. O'Hanlon, I really appreciate your comments on Task 
Force Smith. You know, one of my favorite books that I have in 
my office I actually suggested to the Secretary of Defense and 
his team to read is T.R. Fehrenbach's This Kind of War, which I 
think for people thinking about readiness is always a good book 
to read on the lack of readiness that we had in the Korean War. 
As Senator Inhofe mentioned, we seem to get it wrong every time 
if you are looking historically.
    But I do want to amplify for the record on your comments on 
the Marine Corps. You mentioned effectiveness on Capitol Hill, 
effectiveness with the American people. You forgot to mention 
effectiveness on the battlefield, and as you can imagine, those 
levels of effectiveness are all related.
    But I want to talk about the size of the Army, and I know 
that you have written a lot of--I really appreciate your Wall 
Street Journal op-ed recently on that. With all due respect to 
Admiral Roughead, I think the idea of an Army of less than 
300,000 is strategic lunacy, and hopefully nobody seriously is 
contemplating that. I certainly am not. I think it should be 
about double that size.
    General Mark Milley, the chief of staff of the Army, gave a 
recent speech at the Association of the U.S. Army [AUSA] 
conference a couple of weeks that I thought was an excellent 
speech that talked about some of the myths of warfare. One of 
those myths that he talked about was that armies are easy to 
regenerate. If you overshoot, cut to 300,000, and then, oh, my 
gosh, we have got a crisis, that you can, presto, bring back a 
couple of brigade combat teams and, you know, units that need 
to be trained.
    Can any of you talk about just what that takes in terms of 
once you cut--once you get rid of a, you know, Brigade Combat 
Team [BCT]--an airborne BCT, for example, what happens? How 
long does that take, because obviously he thinks--he puts that 
out as a myth that it can take years, decades.
    Dr. O'Hanlon. I could start, and I know others will want to 
weigh in. Thank you, Senator. General Deptula already made the 
very important point that it takes 20 years to grow a leader of 
a certain stature.
    Senator Sullivan.Sullivan. Right.
    Dr. O'Hanlon. You can try to distribute the existing stock 
across a slightly larger force structure, and promote people a 
little faster, and do a few things around the edges. I would 
defer to those who have more experience hands on than I have, 
but I would simply say that the buildup of the last 15 years, 
once we started growing the force after 9/11, we grew by about 
15 percent over about six to eight years. I think that is about 
as fast I feel that we can empirically say is consistent with 
maintaining high standards.
    So I think 15 percent growth in overall numbers of people, 
of brigade combat teams, and so forth over a six- to eight-year 
period, that is a pretty good set of numbers to keep in mind. 
Anything faster than that would be unproven, except going back 
to World War II when we had a much different kind of buildup.
    Senator Sullivan. Right.
    Dr. O'Hanlon. I think with all great respect to our World 
War II veterans, you know, some of the concepts in that 
particular fight were a little different than today's.
    Senator Sullivan. Sir?
    Mr. McGrath. Senator, I think General Milley was attacking 
a straw man in that speech. No thoughtful defense analyst 
thinks it is easy to grow an army. The question ultimately is, 
is it easier to grow an army, or easier to grow a navy, or 
easier to grow an air force in capital intensive services where 
you have to put investment in year after year in order to 
maintain a certain size.
    It winds up being easier to grow the Army. I think we 
surged up 80,000 people in the Army in a relatively short term, 
and a good number of those saw combat. It would be very 
difficult to imagine a navy growing that fast in that amount of 
time.
    Senator Sullivan. Thank you. Let me switch topics a little 
bit here. The other thing that General Milley, and I know that 
our committee has been focused on to try do a fair amount in 
the NDAA this year on it, is focusing on the tooth-to-tail 
ratio with regard to if we have to make cuts. Again, I am 
focused more back on the Army, but I would appreciate your 
views on this more generally, that the last units we should be 
cutting are the units that are the, you know, direct combat 
units.
    Do you think that as we are looking right now on kind of 
downsizing in the Army or the other branches that we are 
getting that tooth-to-tail ratio correct, or--because I 
certainly think that the last units we should be cutting are 
the BCTs and the other ground combat units. But are we missing 
something in terms of getting that ratio correct? Dr. O'Hanlon?
    Dr. O'Hanlon. Senator, I will begin. I do not disagree with 
you, but I also think that one of the great strengths of the 
American military is that tail. Now, there are parts of it that 
are less efficient, and I would--I would agree with the idea of 
putting 10, 20, 30 percent cuts into some of the headquarters 
and staff, and then letting the services and other 
organizations within DOD figure out how to make that happen.
    So I support that because I think there is a lot of waste. 
But the general notion of tail includes intelligence, includes 
logistics, transportation, cyber. All these things are crucial 
to how we fight, and I think our tail is actually just as 
impressive as our tooth in terms of how we stack up against 
other countries' militaries, which is part of why I am just 
generally reluctant to get too far into that conversation 
because it implies that if you really have tough budget caps, 
you can cut tails safely or relatively safely. I think we just 
cut the defense budget enough, and we are going to have to 
recognize that the tail is important to protect in some cases 
as well.
    Senator Sullivan. Thank you. Thank you, Mr. Chair.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. Dr. O'Hanlon, I 
think I heard you say in your testimony that, and I agreed as 
you went through the history of how we, you know, fought in 
Vietnam based on a false set of assessments and based on what 
we learned from previous wars, and dismantling after those 
wars. But I think what I heard you say is that it took us 
several years to be ready now for the wars of this century. Do 
you think we are ready for the fight against Islamic State in 
Iraq and Syria [ISIS] and for the potential threat from Russia, 
and Iran, and China that we might face?
    Dr. O'Hanlon. Senator Shaheen, thanks for the great 
question. No, I do not think we have a good concept of how to 
deal with Syria partly because the political mess is so huge. I 
mean, what kind of solution are we really after at a higher 
level of political--I have argued for a confederal model of 
Syria. Trying to negotiate a new successor government to Assad 
just is not going to work, and if we begin with that political 
framework, we are bound to fail militarily as well. So that is 
more than just a military challenge. I think it is a broader 
strategic challenge.
    In Asia, I think we are doing better, and I know other 
panelists who will want to comment on that a swell. But I think 
the recent moves by the Pacific fleet to operate in the South 
China Sea, the general concept of the rebalance have been 
reasonably well thought through. I think we are all still 
struggling on how to think about Putin, so that is a separate 
problem, and I am not sure it is fundamentally a DOD problem.
    So I think it really depends, but on the----
    Senator Shaheen. Explain that when you say you do not think 
it is fundamentally a DOD problem.
    Dr. O'Hanlon. Well, I think that the genesis of this goes 
into how we have dealt with Russia for 25 years in terms of 
everything from Nunn-Lugar, to North Atlantic Treaty 
Organization [NATO] expansion, to many other issues. Now, 
seeing the arrival of Putin and how he suppressed Russian 
democracy and otherwise, you know, been a bully in his 
neighborhood, I am not sure that beginning with the debate 
about which weapons to give the Ukraine Army, for example, is 
the essence of the matter. I would rather have a broader debate 
about the future of European security structures and think 
about how our strategy follows from that.
    So arming the Ukraine military may be part of it, but I 
think it needs to be in a broader debate that we are not really 
having. So, again, I do not fault DOD and its tactics and its 
units for that particular challenge.
    Senator Shaheen. Yes, Mr. Martinage?
    Mr. Martinage. I would like to focus in on your comment 
about sort of Iran, China, and that sort of section of 
challenges. In my view, the power projection concept that we 
developed during the Cold War and demonstrated in Desert War 
and really refined since then is really fundamentally being 
called into question. Our adversaries get a vote, and they are 
developing and fielding capabilities to disrupt our preferred 
approach to power projection.
    The big--the big four in my view are space is no longer a 
sanctuary against attack; closed-in airbases and ports, which 
we rely on extensively, are now increasingly vulnerable to 
attack; service combatants and aircraft carriers are vulnerable 
to detection at rang and attack at range; and conventional 
aircraft are increasingly vulnerable to integrated air 
defenses. If you look at all that and how we are currently 
structured and postured in our force, and we have a big and 
growing problem.
    Senator Shaheen. Mr. McGrath, I want to--in your written 
testimony, you talk about the rise of the combatant commanders 
creating the impression that strategy development is no longer 
in the purview of the services. This sort of gets to some of 
the other issues that you all are raising.
    Talk a little bit more about that and why you believe that 
the services should be involved in strategy because my 
perception is that they have been very involved, if no in the 
final decisions around strategy, at least in presenting options 
for what we should be doing. You know, certainly in the war in 
Iraq, I think General Petraeus with his surge, which I think 
there were members of Congress who were involved in those 
discussions. But I think much of the strategy there was based 
on what we were hearing from the commanders in the field. So 
explain what you mean there.
    Mr. McGrath. I think it is important to make a distinction 
between sort of campaign level military strategy, which is what 
the surge was, and the making of long-term military strategy to 
serve the national security strategy. It is in the latter part 
where the services, in my view--I was the lead author and the 
team leader of the Navy's 2007 maritime strategy. There was a 
lot of institutional resistance within the building. What is 
the Navy doing writing strategy? The strategy is the purview of 
the Combatant Commanders [CoComs].
    And in my twisted view of the world, strategy really ought 
to be the purview of the service chiefs because they are the 
ones with the long-term view, whereas the combatant commanders 
are generally more looking at the threats that are before them, 
and I think that's what we pay them to do.
    So it is that tension between the near term and the long 
term that I think puts the Service Chiefs in a better position 
to do that long-term strategic thinking.
    Senator Shaheen. I am out of time, but does anybody 
disagree with that?
    [No response.]
    Senator Shaheen. Okay. I just want to ask Dr. O'Hanlon a 
final question. You raised issues about the QDR. We heard last 
week from a panelist who said we should get rid of the QDR. Do 
you agree with that?
    Dr. O'Hanlon. No, Senator. I think overall even though I do 
not always enjoy reading them--at this point they have gotten a 
little dry at times--the discipline of the process is actually 
useful. Sometimes when they are dry, it is because we have 
worked towards a consensus as a Nation, which is not all 
together a bad thing in all cases either.
    So, no, I would support it. I think we have got about 
enough. General Deptula has mentioned the roles and missions 
commission idea. Maybe that is a good idea. Maybe that is 
enough, however. I mean, in other words, we should not pile on 
additional reviews one after another after another. But I think 
a QDR every four years is probably a pretty solid concept.
    Senator Shaheen. Thank you.
    Chairman McCain. I have found the QDR to be an excellent 
cure for insomnia myself.
    [Laughter.]
    Chairman McCain. Senator Cotton?
    Senator Cotton. Mr. McGrath, a question about the role of 
sea power. Over the last 15 years, we have used sea power to 
project the power onto the land, especially air power. Still 
doing that to this day in the Middle East. Do you think that is 
the proper or primary role that should be using sea power for, 
or should we have sea power focused primarily on control of the 
seas and lines of communication on the seas?
    Mr. McGrath. More of an emphasis on the latter than there 
is today, but certainly a great emphasis on the former.
    Senator Cotton. Okay. Could you say more about that?
    Mr. McGrath. Sure. We live thousands of miles from our 
security interests. Sea power is ultimately probably going to 
be the most effective way to bring mass quantities of power to 
bear quickly when situations are likely to still be in the time 
where they can be controlled, escalated and de-escalated.
    It is hard to get the amount of power flown there from 
Continental United States [CONUS] that we would need in that 
kind of a role, so we have to be able to project power in the 
early stages of conflicts. But when it comes time to bring the 
big hurt, that is really I think an Air Force mission.
    Senator Cotton. Would you say the same thing about the 
Marine Corps and extended land warfare?
    Mr. McGrath. I would say the Marine Corps should--I was 
just talking to Bob Martinage this morning about this. The 
Marine Corps really ought not be in the counterinsurgency 
business and the wide area of security business. They ought to 
be in the crisis management business, but there is a lot of 
business in the crisis management business.
    Senator Cotton. Anybody care to respond to Mr. McGrath's 
comments on those two points? Dr. O'Hanlon got his hand up 
first.
    Dr. O'Hanlon. Sorry. I will be brief. Senator Cotton, I 
think the Marines helped us a lot in the counterinsurgency 
campaigns of the last 15 years. So, while it may nice to have 
them prioritize the missions that focus on expeditionary 
warfare, I think we need to have them also as a potential 
counterinsurgency force.
    Senator Cotton. General Deptula?
    General Deptula. Listen, having 4.3 sovereign square acres 
of U.S. territory that could be moved around the world where 
and when we need it is an absolutely necessary force structure 
requirement of the United States military. The question becomes 
how many in the context of force structure. That decision and 
discussion needs to also be informed by the fact that sea-based 
air power is about 10 times more resource costly than land-
based air power. I am not talking Air Force versus Navy here 
because I am including the Marines as part of that land-based 
calculation. So it is just something that needs to be taken 
into consideration.
    So if you take a look at the initial stages of Operation 
Inherent Resolve, you were flying F/A-18E/Fs with two 500-pound 
bombs 1,200 miles to deliver and come home when on B-1 could 
essentially accomplish the equivalent of 40 F/A-18E/F sorties.
    Chairman McCain. I would point out that without the use of 
Incirlik, we did not have many other options.
    Mr. Martinage. I would just say, along with what Bryan 
said, I think sea control is essential. It is a key enabler for 
the Joint Force. But ultimately, we want to be able to project 
from the sea against land targets.
    Senator Cotton. Okay.
    Mr. Martinage. The challenge there is I think we need to 
rethink the future of the Carrier Air Wing. In particular, we 
need the longer range and more survivability off the carrier 
deck.
    Senator Cotton. General Deptula, I would like to shift to 
our nuclear forces. Given China and Russia's modernization of 
their nuclear forces as well as delivery vehicles and space 
systems, do you think our nuclear forces are properly postured 
to appropriately deter aggression from those countries?
    General Deptula. The overarching general response would be 
yes, particularly in the context of the viability of our triad. 
However, we cannot neglect attention to modernizing our nuclear 
forces. Quite frankly, adversary or potential adversary nuclear 
forces are the only forces that currently pose an existential 
threat to the United States, so that needs to be priority one.
    Senator Cotton. Anyone else have comments on our nuclear 
forces? Mr. McGrath?
    Mr. McGrath. I want to associate myself with something Dr. 
O'Hanlon said earlier, which was his concern--and I do not want 
to misquote you here--his concern for the degree to which the 
Navy's recapitalization of its strategic deterrent could 
potentially impact its ability to continue to provide the force 
necessary as the conventional deterrence force. That concerns 
me greatly.
    I think that is the U.S. Navy's primary close to unique 
contribution to our national defense, and that is day-to-day 
conventional deterrence around the world. If that is impacted, 
I think that is a dangerous thing.
    Senator Cotton. So you worry that they are prioritizing the 
strategic deterrent over conventional deterrent?
    Mr. McGrath. I am certain that they are, yes.
    Senator Cotton. No, as am I. That worries you.
    Mr. McGrath. Oh, okay. I am sorry. Yes, sir, they are.
    Senator Cotton. Okay.
    Mr. Martinage. The only thing I would say about that is 
when we come down on the number of the delivery vehicles and 
nuclear warheads, the coin of the realm becomes the 
survivability of that assured deterrent. Nothing is as good as 
the ballistic missile submarine [SSBN], period, stop.
    Senator Cotton. My time has expired.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman, and thanks to 
all of you for being here. General Deptula, in your testimony 
you wrote in regards to the three legs of the triad, you 
affirmed the importance of it, in maintaining an effective 
nuclear deterrent, and I completely agree. What I am interested 
in is hearing some of your additional thoughts. In your 
testimony you wrote, ``A dollar spent on duplicative capability 
comes at the expense of essential capacity or capability 
elsewhere."
    Do you believe we can achieve savings by pursuing common 
components and systems among the Services for nuclear 
modernization efforts?
    General Deptula. Senator, I am not an expert in that 
particular area, but in general as you posed the question, my 
answer would be yes.
    Senator Donnelly. Okay. I would love to hear the insights 
of anybody else on the panel. Mr. McGrath, I know you talk 
about jointness as a--as a strategy it is not always the 
greatest thing. How about jointness in common components and 
similar things?
    Mr. McGrath. I think if we were able to create a missile 
that was nearly identical for the SSBN and for silos, I think 
that would be a wonderful thing. I do not know how likely that 
it is. I just want to quickly say that my fear is not--I am not 
trying to say that we should not do the SSBN. What I am trying 
to say is we cannot let building the SSBN keep us from having 
the level of conventional Navy that we need to do its job.
    Dr. O'Hanlon. I will pile on the SSBN issue for just a 
second, if you do not mind, and this is in the spirit of--I do 
not want to associate you with this, Senator. But you mentioned 
the $13 billion aircraft carrier. I am troubled by the $6 
billion Ohio-class replacement. I do not know why it has to 
cost $6 billion. I know why it is going to cost more than the 
Ohio-class, and there are some inefficiencies, and times have 
changed.
    The Ohio-class, I think, is quite survivable. It is just 
getting old. To be honest with you, just conceptually I would 
be happy with something that looked like the Ohio-class for the 
future, new Ohio-class subs. I realize we cannot really do that 
because we have lost some shipyard capabilities and so forth. 
But I am still not quite sure why the SSBN successor has to 
cost more than twice as much per vessel. I think some scrutiny 
on that would be--would be advisable for all of us.
    Mr. Martinage. I do not want to get too far down in the 
weeds on the--on the common components on the nuclear side, but 
in terms of warhead designs, having some inefficiency and 
redundancy is probably good so if there is this failure, 
technical failure, in any one of the different warhead designs, 
it does not compromise our strategic deterrence. So sometimes 
you have got to balance, you know, the efficiency.
    Senator Donnelly. Let me ask you this. As we look at dollar 
challenges and budget challenges, and I would love to hear from 
all of you, each one, one after the other, your best idea for 
reduction in bureaucratic growth. You know, if you had one main 
point on that, what would you tell us this is what you have to 
go after? General, I do not know if you want to start first, 
but you are the Lieutenant General in the group, so.
    General Deptula. Sure, I will go first. Once again, we have 
18 defense agencies. We have 10 DOD field activities. That is 
the first place I would start looking to cut in terms of 
increasing and freeing up resources. Then the next place I 
would look is I would look at the staffs, both OSD and Joint 
Staff. Then I would look at the service headquarters staff.
    Senator Donnelly. Mr. McGrath?
    Mr. McGrath. Defense agencies.
    Dr. O'Hanlon. I agree with the idea of a 10 or 20 percent 
arbitrary cut. Usually that kind of policymaking strikes me as 
a punt, and I am frustrated as an analyst when that is all I 
can recommend, but staffs have grown so much. I think simply 
imposing some degree of percentage reduction over a period of 
time----
    Senator Donnelly. Having them figure out----
    Dr. O'Hanlon. Exactly. Then I also am a supporter of 
another round of base closures. I recognize a lot of the 
objections this committee and others have had to the specifics 
of how we did it in 2005. I share some of those critiques. But 
I think we are going to have to get to it at some point as 
well.
    Mr. Martinage. I agree with the rest of the panel. Defense 
agencies, then OSD and Joint staff, and just looking broadly at 
contractor support across the Department.
    Senator Donnelly. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman McCain. Thank you. I am sure our witnesses are 
aware that in the defense bill, which hopefully--which just 
passed the House in the--has a seven and a half percent across-
the-board required cut for four years in staffs. It has been 
pointed out that former Secretary Gates mandated a cut in 
staffs as well, which never really happened. They just shifted 
people around.
    It is also hard to get a handle on it when you don't how 
many people are working there. For 15 years now we have been 
trying to get an audit of the Pentagon. It is my desire, and I 
was just recently out in Silicon Valley to see if they can come 
up with a way since obviously internally we have been unable to 
achieve that.
    We did even get to the issue sequestration, and the--not 
only the damaging that it does to our defense funding, but to 
the ability of the men and women to plan, to operate, to know, 
to have some certainty. I do not know how we can have a QDR if 
we are lurching from one year to another and nobody knows what 
the level of funding is going to be. Of that course, that 
responsibility less in a bipartisan effort in Congress and the 
President of the United States.
    So these are very interesting and difficult times, and 
almost every day brings a new challenge, the disappearance of 
an airliner over Egypt just being the latest. So we need your 
thinking and experience and knowledge very badly. We do not 
pretend to know all the answers, but we are going to make it 
our--reform our highest priority for the coming year.
    There are some very important beginnings, such as reform of 
the retirement system which is fundamental, as you know, and 
many others. But we have a long way to go, and your testimony 
has been very helpful to all members, and I thank you very 
much. Jack?
    Senator Reed. Mr. Chairman, let me thank you for bringing 
together these experts, and let me thank the witnesses for 
extraordinary insights, and thank you for your service to the 
Nation in so many other ways. So, Mr. Chairman, thank you.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
